Report No. D-2009-032       December 12, 2008




      The America Supports You Program
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
AFIS                  American Forces Information Service
ASD(PA)               Assistant Secretary of Defense for Public Affairs
ASY                   America Supports You
COR                   Contracting Officer Representative
FTE                   Full Time Equivalent
GWOT                  Global War on Terror
JCOC                  Joint Civilian Orientation Conference
MOA                   Memorandum of Agreement
MOU                   Memorandum of Understanding
MWR                   Morale, Welfare, and Recreation
SDI                   Susan Davis International
SOCO                  Standards of Conduct Office
USO                   United Services Organization
                                    INSPECTOR GENERAL
                                    DEPARTMENT OF DEFENSE
                                      400 ARMY NAVY DRIVE
                                 ARLINGTON, VIRGINIA 22202-4704




                                                                              December 12,2008

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE
                 (COMPTROLLER)lDOD CHIEF FINANCIAL OFFICER
               PRINCIPAL DEPUTY UNDER SECRETARY OF DEFENSE
                 (PERSONNEL AND READINESS)
               ASSISTANT SECRETARY OF DEFENSE FOR PUBLIC AFFAIRS
               GENERAL COUNSEL, DEPARTMENT OF DEFENSE

SUBJECT: Report on the America Supports You Program (Report No. D-2009-032)

We are providing this repO\l for review and comment. We considered management comments on
a draft ofthis report in preparing the final report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. The Under
Secretary of Defense (Comptroller)/DoD Chief Financial Officer and Assistant Secretary of
Defense for Public Affairs comments were responsive to the recommendations. However, the
Principal Deputy Under Secretary of Defense (Personnel and Readiness) and the General Counsel
of the Department of Defense comments did not meet the intent of the recommendations.
Therefore, we request additional comments from the Principal Deputy Under Secretary of Defense
(Personnel and Readiness) on Recommendation D.3. and the General Counsel of the Department
of Defense on Recommendation B.1. by January 12,2009. If possible, send your comments in
electronic format (Adobe Acrobat file only) to Joseph.Bucsko@dodig.mil. Copies of your
comments must have the actual signature of the authorizing official for your organization. We are
unable to accept the I Signed I symbol in place of the actual signature.

We appreciate the comlesies extended to the staff. Please direct questions to Mr. Henry F.
Kleinknecht at (703) 604-9324 (DSN 664-9324) or Mr. Joseph P. Bucsko at (703) 604-9337 (DSN
664-9337). The team members are listed inside the back cover.



                                         ~M>r;, J3JJ
                                        -V~ ( Richard B. Joi2ffe
                                        Assistant Inspector General
                                    Acquisition and Contract Management
Report No. D-2009-032 (Project No. D2007-D000CH-0213.000)                        December 12, 2008


               Results in Brief: The America Supports You
               Program
                                                           SDI was reimbursed for charges that are
What We Did                                                specifically unallowable under Federal
At the request of the Assistant Secretary of               Acquisition Regulation Part 31 and
Defense for Public Affairs [ASD(PA)], we                   appropriation laws. (finding C).
reviewed the administrative, procedural, and               The American Forces Information Service,
fiscal actions involving the formation and                 working under the authority of the Deputy
operation of the America Supports You (ASY)                Assistant Secretary, inappropriately transferred
program.                                                   $9.2 million of appropriated funds to Stars and
                                                           Stripes through uniform funding and
What We Found                                              management procedures to finance ASY
The Deputy Assistant Secretary of Defense for              program expenses through its nonappropriated
Internal Communications and Public Liaison                 fund. As a result, Stars and Stripes officials
(Deputy Assistant Secretary) is conducting the             failed to perform their fiduciary responsibility.
ASY program (created in 2004) in a                         In addition, Stars and Stripes officials have lost
questionable and unregulated manner. As a                  visibility of about $4.1 million of appropriated
result, the ASY program has produced results               funds transferred for ASY requirements. We
that were not consistent with the program’s                also calculated that the Stars and Stripes
primary objective (finding A).                             nonappropriated fund account has subsidized
                                                           ASY expenses by about $1.9 million through
A private nonprofit fund using the ASY name                FY 2007 (finding D).
and logo has been established to collect
monetary donations, creating confusion between             Issues identified during the audit were referred
the DoD ASY program and the private ASY                    to the DoD Inspector General, Directorate for
fund. As a result, the public may be unable to             Investigations of Senior Officials for review as
differentiate between the DoD program and the              potential senior official misconduct.
private ASY fund; allowing the private fund to
operate under the DoD program name basically               Agency Comments and Our
constitutes implied endorsement, presenting                Response
additional liability for any misuse of donations,
and the private fund benefits from DoD branding            We received comments that were responsive to
the ASY program name (finding B).                          the report recommendations from the Under
                                                           Secretary of Defense (Comptroller)/DoD Chief
The Office of the ASD(PA) provided broad                   Financial Officer and the Assistant Secretary of
statements of work and inadequate oversight for            Defense for Public Affairs. However, the
$8.8 million in charges made by Susan Davis                Principal Deputy Under Secretary of Defense for
International (SDI) for its public relations efforts       Personnel and Readiness and the DoD General
to promote or “brand” the ASY program and the              Counsel comments did not meet the intent of the
services provided appear to be personal in                 recommendations. Therefore, we request
nature. As a result, in FY 2007, the ASD(PA)               additional comments on Recommendations B.1.
procured 11.5 full-time equivalents from SDI for           and D.3. by January 12, 2009. Please see the
about $2.6 million to include annual rates for             recommendations table on the back of this page.
managers/executives from $312,821 to $662,691              Please see the findings sections of the report for
to perform public relations efforts. In addition,          a detailed discussion of the agency comments
                                                           and our response.

                                                       i
Report No. D-2009-032 (Project No. D2007-D000CH-0213.000)              December 12, 2008

Recommendations Table
Agency                           Recommendations            No Additional Comments
                                 Requiring Comment          Required
Under Secretary of Defense                                  D.1.
(Comptroller)/DoD Chief
Financial Officer

Principal Deputy Under           D.3.
Secretary of Defense for
Personnel and Readiness
Assistant Secretary of Defense                              A.1.a. through A.1.j.; B.2.a.
for Public Affairs                                          through B.2.b.; C.1. through
                                                            C.6.; and D.2.a. and D.2.b.
General Counsel of the           B.1.                       A.2.
Department of Defense


Please provide comments by January 12, 2009.




                                          ii
Table of Contents

Results in Brief                                                                  i

Introduction                                                                      1

       Objectives                                                                1
       Review of Internal Controls                                               1
       Background                                                                1

Finding A. Program Operations                                                     4

       Recommendations, Agency Comments, and Our Response                        31

Finding B. America Supports You — Private Fund                                   35

       Recommendations, Agency Comments, and Our Response                        40

Finding C. Contractor Support                                                    42

       Recommendations, Agency Comments, and Our Response                        64

Finding D. Funding of Program Operations                                         67

       Recommendations, Agency Comments, and Our Response                        78

Appendices

       A. Scope and Methodology                                                  81
              Prior Coverage                                                     82
       B. America Supports You Corporate Supporters                              83
       C. Internal Control Standards                                             84

Agency Comments

       Under Secretary of Defense (Comptroller)/DoD Chief Financial Officer      87
       Principal Deputy Under Secretary of Defense for Personnel and Readiness   89
       Assistant Secretary of Defense for Public Affairs                         91
       General Counsel of the Department of Defense                              99
Introduction
Objectives
At the request of the Assistant Secretary of Defense for Public Affairs [ASD(PA)], we
reviewed the administrative, procedural, and fiscal actions involving the formation and
operation of the America Supports You (ASY) program. Specifically, we reviewed
whether the program is effectively accomplishing its mission. We also evaluated the
administration of the ASY Web site for compliance with DoD policy. See Appendix A
for a discussion of the scope and methodology, and prior audit coverage.

Review of Internal Controls
We determined that material internal control weaknesses in the Office of the ASD(PA)
office existed as defined by DoD Instruction 5010.40, “Managers’ Internal Control (MIC)
Program Procedures,” January 4, 2006. The Office of the ASD(PA) did not have
effective internal control procedures to ensure proper contract administration and
organizational management to include adequate tasking of the contractor and oversight of
contractor charges, accounting and use of funds, and proper segregation of duties.
Implementing Recommendations A.1.a., A.1.c., A.1.h., A.1.i., A.1.j., C.1., C.3., C.4.,
C.5., D.2.a., and D.2.b. will improve the Office of the ASD(PA) contract administration
and organizational management procedures to ensure that Joint Ethics Regulations will
not be violated, adequate oversight of senior official’s actions occurs, and taxpayer funds
are properly safeguarded. We will provide a copy of this report to the senior official
responsible for internal controls within the Office of the ASD(PA).

Background
Guidance
On September 29, 2006, the Deputy Secretary of Defense issued a memorandum to
define DoD organizational and management responsibilities for the ASY program. The
memorandum outlined the primary objective of the ASY program.

               In November 2004, the Department of Defense launched the America
               Supports You (ASY) program to showcase and communicate to U.S.
               military members defending our freedom around the globe what
               thousands of individual citizens, community groups, corporations,
               businesses, and others are doing to support them and their families.
               The subsequent success and significance of the ASY program in
               supporting the morale, welfare, and mission of our fighting forces
               warrant the establishment of more clearly defined DoD
               organizational and management responsibilities for the ASY
               program. [Emphasis added]

The memorandum also defined the management structure and other responsibilities for
the program.




                                                1
               Accordingly, the Assistant Secretary of Defense for Public Affairs
               (ASD (PA)) is directed to designate a senior Public Affairs
               Coordinating Official (PASCO) for the Office of the Secretary of
               Defense for the ASY program. Additionally, the Secretaries of the
               Military Departments and the Chairman of the Joint Chiefs of Staff are
               requested to appoint liaisons to the PASCO at the General/Flag Officer
               or Senior Executive Service level.

               The ASD (PA) shall also establish an ASY Steering Committee
               (ASYSC) comprised of the PASCO and Military Service and Joint
               Staff liaison officers, as well as representative(s) from the Office of the
               Under Secretary of Defense for Personnel and Readiness. The ASYSC
               will meet as needed and will be chaired by the PASCO. The role of
               the ASYSC will be to recommend and coordinate policies and
               programs that provide similar support and recognition to service
               members and their families.

               Annually, at the end of the fiscal year, the ASD (PA) will provide
               the Secretary of Defense a status report on ASY activities for the
               year ending and the major initiatives planned for the next fiscal year.

               The Director, Program Analysis and Evaluation, in coordination with
               the ASD (PA) shall establish a Program Element to increase visibility,
               support, and oversight of ASY.

               The Under Secretary of Defense (Comptroller) shall review the
               adequacy of program funding in the FY 2007-2009 [sic] as submitted in
               the American Forces Information Service budget estimate submission.

               The ASD (PA) in consultation with the Director, Administration and
               Management, the General Counsel of the Department of Defense, and
               others affected shall take the necessary action to revise and update DoD
               Directives 5122.5 and 5410.18 as appropriate to incorporate the ASY
               Program. [emphasis added]

Funding
From FY 2005 through FY 2007, the ASY program received $9.2 million of appropriated
funds from American Forces Information Service (AFIS) and from the Global War on
Terror (GWOT) supplemental budget. The ASY program was mainly dependent on the
funds allocated from AFIS, which totaled about $5.4 million. The ASY program
received an additional $3.8 million of funds from the GWOT supplemental budget
through FY 2007 ($0.8 million for FY 2006 and $3.0 million for FY 2007). The ASY
program received about $3.1 million for FY 2008 from the GWOT supplemental budget.

Contractor Support
The preponderance of the program funding was spent on contracts with Susan Davis
International (SDI) for public relations services for the program. A total of six contracts
or delivery orders were issued that had payments totaling more than $8.8 million from
September 2004 through FY 2007. A bridge order was awarded for 6 months to provide
coverage for the program until a new contract could be awarded. On May 14, 2008, SDI




                                                   2
was awarded a 1-year contract with an estimated value of $3 million and four additional
1-year options with an estimated total value of $15.3 million.

Program Management
Since its inception, the Deputy Assistant Secretary of Defense for Internal
Communications and Public Liaison 1 (Deputy Assistant Secretary) has provided day-to-
day management of the ASY program. The ASY program was originally created as a
6-month public awareness program. However, the program continued beyond the initial
6-month period under the control and management of the Deputy Assistant Secretary.
Because there was no Director for AFIS, the Deputy Assistant Secretary assumed the
management duties for five AFIS functional activities: Public Communications,
Information Resource Management, American Forces Radio and Television Service,
Defense Media Center, and Stars and Stripes Newspaper. The Deputy Assistant
Secretary used these AFIS programs to provide funding and support for the ASY
program.




1
 The Deputy Assistant Secretary of Defense for Internal Communications and the Deputy Assistant
Secretary of Defense for Public Liaison are two separate positions. However, currently the functions are
being performed by one individual so in the report we use the term Deputy Assistant Secretary of Defense
for Internal Communication and Public Liaison.


                                                    3
Finding A. Program Operations
The Deputy Assistant Secretary of Defense for Internal Communications and Public
Liaison (Deputy Assistant Secretary) is conducting the ASY program in a questionable
and unregulated manner. Specifically, the Deputy Assistant Secretary:

              used contracts with Susan Davis International, a public relations firm, with
               payments totaling more than $8.8 million (since September 2004) to
               primarily solicit or build support from school children, corporations,
               celebrities, and the media, and to organize ASY special events and procure
               promotional items to promote or “brand” the ASY program during the past
               3 years;

              used the Joint Civilian Orientation Conference to build support and
               promote the ASY program;

              employed a corporate recognition program and displayed corporate logos
               on the ASY Web site, which violates DoD policy and gave preferential
               treatment to select ASY homefront groups; and

              used contracts with the Advertising Council for $338,014 to promote the
               program through an advertising campaign and $191,024 to purchase ASY
               dog tags.

These questionable and unregulated actions occurred because the ASD(PA) failed to
establish the ASY Steering Committee with representation from the Military Departments
and the Chairman of the Joint Chiefs of Staff to recommend and coordinate policies and
programs that provide similar support and recognition to Service members and their
families. The ASD(PA) also failed to provide the Secretary of Defense a status report of
past and future ASY activities. As a result, the ASY program has spent more than
$9 million and produced results that were not consistent with the program’s objective “to
showcase and communicate to U.S. military members defending our freedom around the
globe what thousands of individual citizens, community groups, corporations, businesses,
and others are doing to support them and their families.”

Guidance on Solicitation, Fundraising, and Endorsement
According to the DoD Standards of Conduct Office (SOCO), historically, DoD has not
solicited support for programs from the general public. Thus, the advice from SOCO as
well as Department ethics counselors is for DoD employees not to solicit support for
programs. In 2005, while SOCO worked with the Senate Armed Services Committee to
amend title 10 of United States Code section 2601, “General Gift Funds,” DoD requested
explicit authority to solicit support. However, the Senate Armed Services Committee did
not approve the solicitation language and indicated that should DoD ever try to solicit,
Congress would enact legislation specifically denying DoD solicitation authority.




                                            4
SOCO Advice to Deputy Assistant Secretary
The Deputy Assistant Secretary consulted SOCO attorneys between 2003 and 2005
relating to solicitation, fundraising, and endorsement. In June 2004, the Deputy Assistant
Secretary e-mailed SOCO:

               Issue:
               Overseas, we make troops buy a digital receiver for their televisions so
               they can see AFRTS [American Forces Radio and Television Service].
               If they live on base, it is free but if we don’t have base housing for
               them, we make them buy the receiver. It is a few hundred dollars.
                        .        .         .        .       .       .         .
               I would like to provide the boxes free of charge, the DoD would own
               them and loan them out to the deployed troop. The cost of this is a one
               time charge of $55 million dollars. . . .

               Comptroller isn’t interested in coughing up that much money right
               now.

               So here is my question . . . Is there a way for me to make this
               situation know [sic] to corporate America and offer them the
               option of “sponsoring” a receiver? So the receiver might have a
               sticker on it that says “brought to you by Sears” [Emphasis added]

The SOCO attorney responded to the question, “Of course, you may not solicit anyone,
especially corporate America, to sponsor the receivers. That’s a no-no.”

In September 2005, the Deputy Assistant Secretary e-mailed SOCO about DoD
participation at a check presentation for PGA TOUR fundraising event.
               [T]he [PGA], as you know, has been doing fundraisers for different
               military charities. [T]hey would like to present a token check to a
               senior [D]o[D] person at their year end event. [T]he check would be
               symbolic of hte [sic] money they have donated to the military charities.
               [S]o it isn’t an actual check it is more of a demonstration of what has
               happened. [T]hey have raised over [$]300,000 for the military
               charities. [I]sn’t that great?

               [I]s a senior [DOD] person allowed to accept the “check”. [sic] [T]o be
               clear, the money has already been donated so the person won’t be
               accepting any money at all.

The SOCO attorney responded to the Deputy Assistant Secretary that the DoD
representative could acknowledge the PGA’s contribution but could not endorse or solicit
funds. Specifically, the attorney stated:

               A senior DoD person could certainly thank the PGA for providing
               funds that will benefit members of the Armed Forces. This DoD
               representative could not endorse the PGA or solicit funds, but
               could acknowledge their contribution. Since the check is not real, he
               or she is not acting as an agent for the military relief societies, nor
               should it appear so. A better milieu would be for the DoD
               representative to thank the PGA and stand on the perimeter of the



                                                  5
                presentation of the bogus check to a representative of the military relief
                societies.

                You also mentioned that this will occur at the PGA year-end event. Is
                this event appropriate for DoD to participate in? Is it a
                fundraiser? [Emphasis added]

Ethics Regulations
Joint Ethics Regulation 3-210 requires that “DoD employees shall not officially endorse
or appear to endorse membership drives or fundraising for any non-Federal entity except”
for organizations that have special authority (that is, the Combined Federal Campaign).
Joint Ethics Regulation 3-209 requires that DoD or its employees in their official
capacities may neither state nor imply endorsement of a non-Federal entity, event,
product, service, or enterprise. Specifically, the Regulation states:
                Endorsement of a non-Federal entity, event, product, service, or
                enterprise may be neither stated nor implied by DoD or DoD
                employees in their official capacities and titles, positions, or
                organization names may not be used to suggest official endorsement
                or preferential treatment of any non-Federal entity… [Emphasis
                added]

Soliciting or Building Support for ASY Program
SDI, a public relations firm, was paid more than $8.8 million to primarily solicit or build
support from school children, corporations, celebrities, and the media to promote or
“brand” the ASY program during the past 3 years. Table 1 shows the different contracts
and amount spent by fiscal year for public relations support.

      Table 1. Public Relations Contract Payments to Susan Davis International
                                           Fiscal Year
     Contract/Delivery Order     2005         2006         2007         Total
      W74V8H-04-F-1172        $ 821,350              -            - $ 821,350
      W74V8H-05-F-1172           550,478             -            -      550,478
      NAFBA1-05-F-0531           821,6981   $2,383,669            -    3,205,367
      NAFBA1-06-F-0256                  -      478,168            -      478,168
      NAFSS1-06-F-0011                  -      704,860 $ 809,006       1,513,866
      NAFSS1-07-F-0007                  -            - 2,258,628 2     2,258,628
     Total                    $2,193,526    $3,566,696 $3,067,634    $ 8,827,856
 1
   Washington Headquarters Service reimbursed the American Forces Information Service Budget
 $236,491 for Susan Davis International labor and material charges.
 2
   This includes the Washington Headquarters Service direct payment of $385,072 to Susan Davis
 International for labor and material charges related to the 2007 National Freedom Walk.

Instead of focusing on its primary mission of showcasing and communicating support to
the troops and their families, the ASY program focus has been on building or soliciting
support from the public. The initial contract awarded on September 30, 2004, to SDI
required the contractor to recognize and “build” support for the U.S Armed Forces.
Specifically, the statement of objective stated:


                                                    6
                 To recognize, build and communicate America’s support for the men
                 and women in the U.S. Armed Forces through a six-month national
                 awareness campaign entitled “America Supports You.” [Emphasis
                 added]

Soliciting Support From School Children
SDI solicited support from school children, teachers, and administrators by entering into
five separate agreements with Lifetime Learning Systems. The agreements totaled
$600,720 and created inserts about the ASY program to the Weekly Reader, 2 including
posters that solicited support for the ASY program from school children, teachers, and
administrators and conducted a survey of grades 3–6 on their awareness of the program.
Table 2 outlines what each of the agreements provided.

                       Table 2. Lifetime Learning Systems Agreements
             Date       Amount                                      Services
            1/7/2006   $245,435      93,000 Posters, guides, and reply cards for teachers
          1/11/2006     171,185      2.1 Million inserts for students
          4/14/2006      12,000      Survey of 3,000 3rd–6th graders about ASY Program
                                     awareness
          4/20/2006      99,750      16,615 Posters, brochures, response cards, and surveys for
                                     public libraries and fax blast to 100,543 principals
            5/2/2007     72,350      21,548 Posters and letters to elementary and secondary
                                     schools

            Total      $600,720

For example, the January 11, 2006, agreement provided for an ASY supplement to the
Weekly Reader Issue 25, dated May 5, 2006, that openly solicited children to thank the
troops, organize an ASY Freedom Walk at their school, and to join the ASY program.
Specifically, the supplement stated:

                 Hold an America Supports You Freedom Walk at your school
                          .       .        .        .        .        .        .
                 You can even hold an America Supports You Freedom Walk at your
                 school. By working with your principal and teachers, you can be
                 involved in creating a special event that helps all of your classmates
                 remember what happened in our country on September 11, 2001.
                 And it’s a chance to say thank you to all of our veterans, past and
                 present, for protecting your freedoms. [emphasis added]

The children’s supplement also contained a checklist, which included the date of the
walk, for students to talk with principals/teachers, pick a walk location, time, length of
walk, and to advertise the walk. Similarly, in August 2007, the ASY program sent a


2
 The Weekly Reader offers engaging educational materials, reinforcing curriculums with reader-friendly,
supplemental learning tools for kids and teens.


                                                    7
letter to educators at elementary and secondary schools to help organize and promote
Freedom Walks from school children as well as outline the accomplishments of a 10-
year-old child who had organized a Freedom Walk in his Ohio hometown. Figure 1 is a
picture of the poster provided to schools with a letter soliciting support.




Figure 1. ASY Poster Soliciting Support From Schools

Hiring a public relations contractor to build or solicit school children’s support for the
ASY program is questionable and is not consistent with the program’s mission of
communicating support to the troops and their families.

Soliciting Support From Corporations
SDI was also used to build support from corporations for the ASY program. SDI
solicited corporations directly to support the program and created a corporate toolkit that
marketed the publicity DoD can supply in return for joining with the ASY program.

In late 2004 or early 2005, an SDI Vice President solicited the Commissioner of the PGA
TOUR to support the ASY program. The solicitation led to the PGA TOUR announcing
its support of the ASY program in February 2005. In June 2005, SDI and the Deputy
Assistant Secretary met with PGA TOUR officials to discuss how the PGA TOUR would
support ASY. The PGA TOUR decided to support ASY through fundraising events at its
Tournament Players Clubs. The proceeds from the fundraising events were donated to
ASY homefront groups that were chosen by the PGA TOUR. In 2005, Tournament
Players Clubs held 18 fundraising events for 3 ASY homefront groups (the Wounded


                                              8
Warrior Project, Homes For Our Troops, and the Intrepid Fallen Heroes Fund). In 2006,
Tournament Players Clubs held 21 fundraising events for the same 3 ASY Homefront
groups. In 2007, Tournament Players Clubs held 21 fundraising events for 6 ASY
homefront groups (the Wounded Warriors Project, Homes for Our Troops, the Intrepid
Fallen Heroes Fund, Operation Homefront, the Special Operations Warrior Foundation,
and the Naval Special Warfare Foundation). According to the PGA TOUR, the Deputy
Assistant Secretary spoke at Tournament Players Club fundraising events located in
Boston, Massachusetts, and in Minnesota in 2006, as well as at the Tournament Players
Club Avenel, Potomac, Maryland, fundraising event in 2007. In addition, the PGA
TOUR also created a brochure that used the ASY name and logo. Figure 2 shows the
front cover of the PGA TOUR brochure for its fundraising events with the ASY name
and a portion of the inside that includes the logo and promotes a partnership with PGA
TOUR fundraising events.




Figure 2. PGA TOUR Brochure “Co-Branding” Fundraising Events

The brochure makes it clear that the DoD ASY program is the “main attraction.”
According to a SOCO attorney, the use of the ASY name, logo, and a military color
guard picture on the back cover implies endorsement of the PGA TOUR fundraiser by
DoD, which violates the Joint Ethics Regulation. The brochure was not submitted for


                                           9
legal review because the brochure had been created and paid for by the PGA TOUR. It
was not until a legal staff member came across the brochure that it was finally reviewed.
Legal counsel subsequently advised Public Affairs officials to inform the PGA TOUR
that they could no longer use the brochure in the promotion of the Tournament Players
Club fundraising events. According to a Public Affairs official, the Tournament Players
Club events also displayed a large banner with the ASY name and logo. In addition,
according to the Air Force Public Affairs office, five to six requests from the Deputy
Assistant Secretary for flyovers at PGA TOUR events were denied because the events
were private fundraisers. As a result, a senior DoD official’s presence and speech at a
non-Federal entity fundraising event connected to DoD’s ASY program was
inappropriate and implied DoD endorsement of the fundraiser.

In addition to the PGA TOUR, our review of SDI daily activity logs has uncovered more
examples of corporations approached for support of the ASY program.

               January 9, 2007. Edited the outline for ASY Partnership Portfolio for use in
               meeting with corporations on behalf of Homefront organizations.

               January 15, 2007. Developed tactics for approaching corporate prospects for
               Homefront partnership initiative.

               January 16, 2007. Compiled list of prospective corporations for partnership
               with Homefront groups.

               March 12, 2007. Began drafting corporate invitation letters to meeting in April
               to discuss homefront adoption program.

               March 15, 2007. Participated in conference call with PGA Tour and TPC
               [Tournament Players Club] to discuss their outreach to their major corporate
               sponsors encouraging support for ASY.

               March 26, 2007. Drafted corporate partner invitation letter for possible
               Pentagon Roundtable Discussion event.

Corporate Toolkit
SDI also used a corporate toolkit to explain the advantages of joining with the ASY
program. The toolkit makes many promises of publicity for corporations in return for
their support of the ASY program. The publicity includes features on the ASY Web site,
American Forces Radio and Television Service, the Pentagon Channel, and the weekly
newsletter that reaches thousands of people including Congress and the media.
Additionally, corporations receive weekly advertisements in Stars and Stripes and they
are authorized to co-brand their events with ASY. Specifically, the toolkit section titled,
“Corporate and Organization Team Opportunities,” states:

               America Supports You works with each corporation and organization to
               communicate its efforts for the troops and their families with specially
               designed programs, along with the following:

                       New team members are featured on the official
                        Department of Defense America Supports You Web site


                                                 10
       and, via the American Forces Radio and Television Service
       (AFRTS) and Pentagon Channel, broadcast to the military
       in 177 countries.

      Companies can post a link to www.AmericaSupportsYou.mil
       on the home page of their corporate Web sites.

      Weekly ads in Stars & Stripes (delivered to troops in the
       Middle East) feature the contributions and programs of
       corporate partners.

      America Supports You and corporate team members issue joint
       press releases announcing new team membership.
       .       .       .       .        .       .        .

      America Supports You dog tags and lapel pins are available
       for purchase to be used for employees, fundraising activities,
       grassroots groups, or other special projects.

      A weekly e-newsletter is delivered to thousands of key
       supporters nationwide, to Congress, and to the news
       media, announcing new members and other activities of the
       America Supports You team.

      Companies can highlight special promotions for the troops
       and their families through approved use of the America
       Supports You brand in their advertising and marketing
       materials.

      Corporations or organizations can co-brand special events
       with the America Supports You program.

Join the Team! [Emphasis added]




                                11
Figure 3 is an example of an ad in Stars and Stripes for ASY corporate supporters.




Figure 3. Stars and Stripes Ad for the Indianapolis 500

The solicitation of corporate support for the ASY program is inappropriate, contrary to
Departmental guidance, and again shows the operations of the program were not focused
on communicating public support to the troops. See Appendix B for a listing of
corporations who have joined with the ASY program.

Soliciting Support From Celebrities
SDI also solicited support from celebrities to help put on special events such as the
Freedom Walk, Memorial Day parade, Military Appreciation Month, and concerts, while
gaining media attention to “brand” the ASY program name. In its contract proposal, SDI
provided a list of more than 40 celebrities for which they had contact information and
discussed the importance of using celebrities’ “star-presence” at ASY events.
Specifically, the proposal stated:

              The Celebrity Council will be a key component of the public awareness
              outreach campaign. They will add star-presence to America Supports
              You events, will be asked to make note of America Supports You in
              their own public appearances, and can be asked to participate in public
              service announcements as well. The names of our celebrity participants
              will be included in campaign materials as well. SDI is well-positioned
              to develop this council, adding additional resources to the list of
              celebrities already supporting Department of Defense initiatives. For
              the Martin Luther King, Jr. Memorial Foundation, we have built a list
              of some forty celebrities representing all aspects of sports and
              entertainment, and are incorporating them in the Foundation’s
              campaign in a variety of ways including the development of a




                                               12
               nationwide radio psa [public service announcement] campaign
               currently in production.

SDI implemented its proposal for the ASY program by soliciting celebrity shout-outs to
the troops. The ASY Web site contains more than 100 celebrity shout-outs, including
shout-outs on location at the Verizon Center in Washington, D.C., when the World
Wrestling Entertainment performed, or at the Pentagon when the Jenny Boyle Band
performed. However, most of these videos were shot in places other the national capitol
area. Many of the videos were taken at the Oscars in Los Angeles, California, where
people such as John Singleton, Rick Gonsalez, Jessica Biel, Gwyneth Paltrow, Ryan
Gossling, Celine Dion, and Mickey Rooney recorded their shout-outs to the troops.
Siedah Garrett and Michael Buble recorded their shout-outs at the Grammys. Musin
Muhammad, Rex Grossman, and Peyton Manning all recorded shout-outs at the Super
Bowl. Shout-outs were also recorded by Pat Sajak, Vanna White, and Alex Trebek on
their game show sets. According to a Public Affairs official, the Oscars and these other
events were not normally covered by DoD before the ASY program.

In its contract proposal, SDI stated that it would “invite celebrities to donate their time.”
However, we found that most celebrities charged DoD fees for their appearance or
performance. Gary Sinise and his Lt. Dan Band received a fee to perform at a Military
Appreciation Month concert (see Figure 4) in May 2006 and DoD paid transportation,
meals, lodging, and other miscellaneous expenses.




Figure 4. Gary Sinise Performing at a Military Appreciation Month Event




                                               13
Clint Black charged a service fee to perform at the 2005 Freedom Walk and DoD paid
additional expenses of $6,743.




Figure 5. Clint Black and Then-Secretary of Defense Donald Rumsfeld
at the 2005 Freedom Walk Concert

Chely Wright received a performance salary for performing at the Intrepid Concert in
May 2005. DoD paid more than $165,000 in total for the Intrepid Concert. The Harlem
Gospel Choir charged an engagement fee for performing at the 2007 Freedom Walk and
DoD also paid transportation expenses.

By comparison, the United Services Organization (USO), which puts on shows for the
troops stationed within the war zone, does not pay celebrity entertainers any service fees
and reimburses only travel and food costs.

Hiring a contractor to solicit support from celebrities and paying entertainer fees for
concerts held stateside to gain media attention for the ASY program is questionable and
is not focused on the primary ASY mission.

Soliciting Support From the Media
SDI also contacted major media outlets to build support and grow publicity for the ASY
program. In its contract proposal, SDI emphasized the importance of “branding” the
ASY program through the national media. SDI discussed key story angles to gain
publicity such as the Celebrity Council, corporate supporters, ASY activities (that is,
special events), and a radio media tour.

               To promote these message points, SDI would develop a national media kit and
               regional toolkit that would ensure continuity of message, reinforced branding,
               and cohesive outreach to both national and regional media targets.
                        .         .        .       .         .       .         .




                                                 14
              SDI will also develop a variety of story angles and seek out national media
              opportunities throughout the six month campaign targeting a wide range of
              media outlets. Key story angles and ideas include:
                       .        .        .         .        .        .        .

                      Pitch visual activities to CNN, MSNBC, Fox, and the network morning
                       shows . . .
                                .         .        .      .      .         .       .

                     Announce the Celebrity Council to the entertainment press including
                      reporters and editors at: The LA Times, USA TODAY, the NY Post
                      Page Six, US Weekly, People, Star, Entertainment Weekly, Variety, and
                      Hollywood Reporter.

                     Pitch stories about the partners and corporate programs to support the
                      troops to Fortune, Businessweek, MSNBC, CNBC, and The Wall Street
                      Journal.
                      .        .        .         .        .        .       .        .

                     Schedule a radio media tour with ABC Radio, American Urban Radio
                      Network, AP, CBS, CNN, NPR’s Morning Edition, NPR’s All Things
                      Considered, and NPR’s Talk of the Nation.

According to daily reports, SDI solicited media to provide coverage of the ASY program
and worked to obtain interviews for ASY personnel. According to SDI, media outlets
initially were hesitant to support the ASY program because the program was viewed as
DoD attempting to grow support for the war. That viewpoint has subsequently changed
and media coverage of the program has increased.

              January 29, 2007. Called stations to encourage running the ASY Valentine’s
              Day PSA. Confirmed interest with 11 TV stations who would like to run the
              Valentine’s Day PSA.

                       .        .        .        .        .        .        .

              Call to CBS Sports contacts asking for ASY lower third mention during flyover
              during Super Bowl.

              May 2, 2007. Reached out to Today [S]how and compiled media list to pitch
              story ideas.

              May 3, 2007. Drafted and sent e-mail to Margo Baumgart at Good Morning
              America regarding May media initiatives.

              May 4, 2007. Outreach to Time Magazine, Financial Times, CNN, CBS, NBC,
              ABC, and Charlie Rose Show regarding ASY.

              August 14, 2007. Pitched Allison [Deputy Assistant Secretary of Defense for
              Internal Communication and Public Liaison] to Fox and Friends. Working on
              senior executive meeting at FOX.




                                                15
Additionally, SDI solicited media support of ASY homefront organizations and a
Freedom Walk organizer to obtain media opportunities for these groups.

               December 11, 2006. Reached out to producer for Good Morning America
               asking GMA to add ASY link to their website for Operation
               Homefront/Wal-mart events.

               February 1, 2007. Assisted in setting up interview for Shauna Fleming with
               KCBS radio in Los Angeles to discuss ASY 2.6 [million letters of thanks] in
               2006 and her visit to the Pentagon.

               May 18, 2007. Spoke to Amy Palmer about possibility of featuring Operation
               Homefront on CBS Early Show.

               June 25, 2007. Spoke with Access Hollywood producer regarding Colton
               Lockner appearance on set of Hannah Montana.

               June 26, 2007. Continued working on matching up homefront groups with CBS
               summer city tour.

               July 3, 2007. Started filling out application with CNN Heroes Special for
               Colton Lockner’s nomination.

Further, the ASY program released a press release on March 17, 2005, making the
Deputy Assistant Secretary “available” to the media to discuss the program as part of a
parallel story on the 2-year anniversary of the start of Operation Iraqi Freedom.

               For media outlets covering the anniversary story, an important parallel
               story angle is the broad and diverse outpouring of support of the
               American people for our service members and their families, especially
               those serving in harm’s way.
                        .         .        .        .       .        .         .

               . . . Deputy Assistant Secretary of Defense for Internal
               Communications and Public Liaison, is available to discuss the
               “America Support[s] You” program and the importance of recognizing
               the support of the American people for our Armed Forces.

The direct solicitation of media coverage to publicize the ASY program is inappropriate.
The program operations need to be focused on how to communicate public support to the
troops.

The Assistant Secretary of Defense for Public Affairs needs to take appropriate action
and create adequate controls to ensure that employees or contractors do not violate the
ethics regulations relating to solicitation, fundraising, and endorsement.

ASY Special Events
SDI was also paid to organize ASY special events to attract media coverage to promote
or “brand” the program. We were able to identify that about $3.6 million was spent on
special events to gain media coverage to promote the ASY program. These special


                                                 16
events include the Freedom Walk, the Memorial Day parade, and the Intrepid Concert.
Table 3 shows the cost of ASY special events we identified.

                               Table 3. Special Event Expenses
                                      Event                       Total
                               Freedom Walk                    $2,576,807
                               Memorial Day                       834,711
                               Intrepid Concert                   165,036
                                  Total                        $3,576,554

Freedom Walk
The National Freedom Walk was created under the ASY program. The National
Freedom Walk has been held annually since September 2005 to honor the victims of
September 11, 2001, and the troops. In 2007, the National Freedom Walk had about
10,000 participants and there were a total of 230 Freedom Walks held throughout the
world, which included all 50 states and 10 foreign countries. The Deputy Assistant
Secretary used SDI to organize and coordinate the National Freedom Walk in
Washington, D.C., as well as secure entertainment and purchase logistics support for the
event. SDI also solicited community groups and schools to put on Freedom Walks in
their towns. Table 4 shows the breakdown of the $2.6 million in expenses for the
Freedom Walk by fiscal year.

                         Table 4. Freedom Walk Expenses by Fiscal Year
                                            FY 2005            FY 2006            FY 2007            Total
Stars and Stripes
   Susan Davis International labor           $183,163          $ 259,899              -             $ 443,062
   Susan Davis International material         543,693             605,184          $132,006          1,280,883*
Washington Headquarters Service
   Susan Davis International labor             -                   -               $232,087         $ 232,087
   Susan Davis International material        $ 20,045              -                152,985            173,031*
   Other expenses                              69,162           $ 180,590           197,993            447,745
                 Total                       $816,063          $1,045,673          $715,071         $2,576,807 *
*
  Slight rounding inconsistencies may exist because auditor calculations included decimal places.

Memorial Day Parade
Since 2005, the National Memorial Day Parade has been held each Memorial Day in the
nation’s capital to honor the current Service members and veterans of the United States
military. According to SDI, in 2006, a congressional requirement sought to bring Service
members representing all branches of the military to participate. The Deputy Assistant
Secretary took on the responsibility of authorizing payment for this congressional
requirement and used its contractor and Washington Headquarters Service to pay for the
event. Each service member was allowed to bring one guest and they were issued official
Government travel orders that covered the mode of travel and per diem. Lodging
expenses were not covered by the travel orders because SDI entered into agreements with
Marriott to obtain rooms for the Service members. However, our review of lodging
charges has uncovered duplicate or unused hotel room charges being paid by DoD. The


                                                   17
travel costs and per diem were paid by Washington Headquarters Service through a
Military Interdepartmental Purchase Request to the participating Military Department.
Table 5 categorizes the expenses paid for the Memorial Day Parade.

                            Table 5. 2006 Memorial Day Expenses

                       Susan Davis International               Expenses
                       Material                                 $260,150
                       Hotels                                    118,699
                       Labor                                      81,008
                        Subtotal                                $459,857

                       Washington Headquarters Service
                        Travel/Per diem                         $374,854
                         Total                                  $834,711

However, we were unable to obtain complete documentation to support actual travel and
per diem expenses from the Coast Guard and Air National Guard. The ASY program
also entered a float in the 2006 Memorial Day Parade. The float was purchased by its
contractor, SDI, for $3,750. Figure 6 shows a picture of the ASY Memorial Day Parade
float.




Figure 6. America Supports You Memorial Day Parade Float

Intrepid Concert
SDI was paid more than $165,000 to put on the Intrepid Concert held on May 28, 2005,
at the Intrepid Sea Air Space Museum as part of Fleet Week 2005 in New York City.
The concert featured entertainers Chely Wright and Montgomery Gentry. SDI worked
with Intermedia Production Group to handle all of the entertainment and production
needs for the concert. The total concert cost was $165,036, which included
approximately $15,000 in performer airfares; $15,651 for hotels; and $20,475 in
management fees and performance salaries. Neither SDI nor Intermedia Production
Group, which dissolved in 2006, was able to provide us with supporting documentation
of charges paid by DoD. The problem with obtaining adequate documentation and level


                                              18
of review by DoD contracting officer representatives (COR) is discussed in more detail in
finding C.

Armed Forces Bowl
SDI helped create a partnership with the Armed Forces Bowl organizers for the ASY
program. SDI tasks included promoting the ASY program, obtaining shout-outs from the
troops for the bowl game, and featuring the Bell Helicopter Armed Forces Bowl on the
ASY e-newsletter. The 2006 and 2007 Armed Forces Bowl displayed an ASY logo on
the football field during the event. Figure 7 shows a picture of the ASY logo on the
football field at the 2007 Armed Forces Bowl.




Figure 7. America Supports You Logo at Armed Forces Bowl

According to bowl organizers, the ASY ad on the field was provided free of charge
because the ASY program helped the bowl get coverage on Armed Forces Radio and
Television Service, provided contact information for the Secretary of the Army, who was
honored at halftime of the game and shout-outs from the troops that could be aired during
the game. However, the Army was charged to have its logo advertised on the field based
on its package with ESPN. In addition to the free ad on the field, the ASY program also
received:

              two 30-second public service announcements that were aired on the
               stadium video board;

              ASY signage in the North and South end zones and a rotating ASY logo
               on stadium display;

              full-page print ad in Game Day Program and Visitor’s Fan Guide;

              ASY article and logo in bowl e-newsletter;

              ASY logo and Web link on bowl Web site;

              on-site ASY and homefront group display areas (inside and outside
               stadium) as part of Armed Forces Adventure Zone;




                                           19
                on-site space for ASY trailer in Adventure Zone; and

                ASY flag on an Air Force parachute jumper onto the field.

In return, bowl organizers requested participation from military branches to include
transportation to attend the game, attendance by senior and local members for bowl kick-
off luncheon, coin toss, halftime ceremonies, golf tournaments, parade, and team
announcement party. Bowl organizers requested Armed Forces hardware and displays
from each branch, flyovers and parachute teams, and military bands. Bowl organizers
also requested participation from the Armed Forces Network and other DoD media assets
to include a live game broadcast on Armed Forces Network; air non-commercial/public
service announcements for Bell Helicopter and others; promote bowl awareness on the
Pentagon Channel, American Forces Press Service, ASY Web site, Stars and Stripes,
DoD/Military Internet sites, and other Defense media outlets.

The Assistant Secretary of Defense for Public Affairs needs to determine whether funding
special events held stateside to promote the ASY program is an appropriate and cost-
effective way to meet the primary mission of communicating public support to the troops.

Promotional Items
SDI also procured ASY promotional items that were used to promote or brand the
program. We found several transactions amounting to almost $89,000 where the
contractor procured items that could be used to promote the program to the public
(see table 6).

                      Table 6. America Supports You Promotional Items
 Invoice Date                               Item (Source)                                        Amount
     6/6/2005       ASY Lapel Pins (C. Forbes, Inc.)                                            $ 1,519
     6/6/2005       ASY Golf Shirts (Leaderpromos)                                                 1,081
    7/25/2005       ASY Lapel Pins and Appreciation Cards (C. Forbes, Inc.)                        4,489
    7/25/2005       ASY Magnets (Fort America)                                                       990
    7/25/2005       ASY Shirts (Leaderpromos)                                                        124
    9/21/2005       ASY Shirts (Leaderpromos)                                                      3,098
    9/21/2005       Patriotic Pins (Alamo Stamp & Engraving)                                       2,025
    9/21/2005       Pins (Fort America)                                                            1,000
   10/12/2005       Pins (Fort America)                                                            1,650
   10/12/2005       Apparel (Leaderpromos)                                                           550
     4/4/2006       ASY Pins/T-shirts                                                                490
     5/9/2006       ASY Pins/T-shirts/Hats                                                        12,779
     6/5/2006       ASY Pins                                                                         819
    9/21/2006       Freedom Walk Volunteer Shirts (Mulberry Tree)                                  1,755
    9/21/2006       Shirts (Leaderpromos)                                                          3,009
    10/6/2006       Freedom Walk Volunteer Shirts (Mulberry Tree)                                  1,780
    10/9/2007       Freedom Walk Volunteer/Participant T-shirts (Buxton Brown)                    51,750
  Total                                                                                         $ 88,907*
 *Slight rounding inconsistencies exist because auditor calculations included decimal places.


                                                   20
In addition, we also found that $191,024 of ASY dog tags were procured directly from
C. Forbes, Inc., and Capital Design, Inc. The dog tag procurements are discussed later in
the finding under the section “other program expenses.” Based on information contained
in the contract files, the dog tag procurement from C. Forbes, Inc., and t-shirts for the
Freedom Walk were distributed mostly to the general public. The other transactions
appear to be for public use as well. Using appropriated money to provide promotional
items to the public is not allowed unless specific authority has been obtained. We do not
see that the ASY program has this authority and feel these procurements are questionable
and may violate appropriation laws.

The Assistant Secretary of Defense for Public Affairs needs to determine whether the
procurement of America Supports You promotional items for the public is appropriate.

Joint Civilian Orientation Conference
The Joint Civilian Orientation Conference 3 (JCOC) was also used to promote the ASY
program and solicit support from corporations through the conference attendees.
According to the former Special Assistant to the ASD(PA), who attended JCOC 74,
JCOC was used as a recruiting tool for the ASY program. There were specific agenda
items where JCOC members were required to sign ASY banners and take pictures with
the ASY banners on JCOC trips. Figure 8 shows members of JCOC 72 (October 2006)
and 73 (April 2007) posing for pictures and signing ASY banners. Similar pictures exist
for JCOC 74 (November 2007) but are not shown on the JCOC Web site.




Figure 8. JCOC 72 and 73 Members Working With ASY Banners

In addition, the JCOC 72 agenda included a page that pitched the ASY program to
participants. The document stated:

                  America Supports You is a Department of Defense program
                  recognizing citizens’ support for our military and communicating that
                  support to members of our Armed Forces and their families, at home
                  and abroad . . .



3
  The JCOC program has been held 74 times since 1948 and is sponsored by the Secretary of Defense for
civilian public opinion leaders interested in growing their knowledge of the military and national defense
issues.


                                                    21
                      .       .       .       .       .      .      .
              More than 25 corporations have joined the America Supports You
              program—including AT&T, Checkers, the Grand Ole Opry,
              McDonald’s, NASCAR, the PGA TOUR, Ringling Bros. and Barnum
              & Bailey and Wal-Mart.

              Celebrities and sports figures are lending their support to America
              Supports You in a variety of ways including making personal
              appearances and appearing in public service announcements.

              The Ad Council selected America Supports You for a print, radio and
              online public service announcement campaign encouraging people to
              show their support for the troops and directing people to the America
              Supports You Web site. The popular PSAs are appearing nationwide.
                       .       .        .         .       .       .         .
              To find out how you can help, visit www.AmericaSupportsYou.mil.

The JCOC 2006 Year in Review report also provides additional evidence of the
Department promoting the ASY program and its corporate supporters. Specifically, the
report stated:

              JCOC alumni continue to play an active role with America Supports
              You in a number of different ways. Through their companies and
              personally, alumni have partnered with grassroots groups, donated
              money, organized special events and volunteered their time. Through
              this involvement, they have energized their employees and
              communities to get involved.

              One of the 2007 goals for America Supports You is to identify a
              company to adopt each of the nearly 250 grassroots members listed on
              the website.

Further, the JCOC Year in Review report also highlighted the actions of ASY corporate
supporters, Checkers drive-in restaurants, and the PGA TOUR in support of the ASY
program.

SDI daily reports also captured the solicitation of JCOC members and their incorporation
in “building” support for the ASY program.

              January 17, 2007. Updated Homefront Partnership Tracking Sheet with JCOC
              companies recommended by [a Public Affairs official].

              January 18, 2007. Sorted Homefront groups, JCOC, and corporate team
              members by state for better matching capability.

              February 26, 2007. Spoke with [a Public Affairs official] to discuss upcoming
              conference call with JCOC member . . . about possible Hollywood event.

These questionable actions are contrary to the overall mission of the JCOC program,
which was used inappropriately to solicit support and promote the ASY program.




                                               22
The Assistant Secretary of Defense for Public Affairs needs to ensure that the Joint
Civilian Orientation Conference is not used to solicit support for DoD programs.

Corporate Recognition
A recognition program for corporate support was employed and corporate logos were
displayed on the ASY Web site, which violates DoD policy. Preferential treatment was
also given to select homefront groups.

Recognition Program
In addition to the other publicity promised by DoD, the ASY program used a formal
recognition program for corporations and other individuals to highlight their support of
the ASY program and to garner additional media coverage. The ASY program awarded
the Office of the Secretary of Defense Exceptional Public Service Awards to select
supporters. According to a press release, the Exceptional Public Service Awards were
“. . . established to recognize non-career federal employees, private citizens and foreign
nationals for their contribution, assistance or support of activities for the U.S. armed
services.”

In its proposal, SDI outlined the importance of a recognition program. Specifically, the
proposal stated:

               We suggest a recognition program that would identify and honor
               individuals, non-profits and corporations in each of the 50 states that
               are supporting the troops. Members of Congress and Governors from
               each state would be asked to select a person, business or non-profit
               from their state or district who is doing something special to support
               the troops and submit details on what they are doing.

               Each person selected will receive a letter from Secretary [of Defense]
               . . . for framed display . . . We encourage highlighting their choices
               through op-eds, regional media, newsletters, member radio/TV shows
               and in speeches, events, activities, etc.

Based on the award recipients we identified, three were corporate supporters of the
program as shown by table 7.

               Table 7. ASY Exceptional Public Service Award Recipients
                   Date                                        Recipient
       March 7, 2006                  Indianapolis Motor Speedway (supporter)
       December 13, 2006              World Wrestling Entertainment (supporter)
       February 1, 2007               Orange Lutheran High School Principal
       March 15, 2007                 DuPont Teflon and Treat the Troops
       April 12, 2007                 Mayor of Peoria, Arizona
       May 4, 2007                    RE/MAX(supporter)
       June 28, 2007                  Simonton Windows and Homes For Our Troops
       July 30, 2007                  Dr. Laura Schlessinger




                                                 23
According to the Deputy Assistant Secretary, there are no written criteria for selecting the
recipients of this award. Further, no DoD policy exists or was established for recognizing
corporations or individuals for their support of DoD programs.

The Assistant Secretary of Defense for Public Affairs needs to determine whether the
Department should continue to give recognition awards to corporations and celebrities
in return for their support of the ASY program.

Corporate Logos on ASY Web Site
The ASY Web site also lists corporate logos, which is in violation of DoD Web site
policy. See the table in Appendix B for a list of the corporate supporters. Figure 9 shows
the top section of the ASY Web site corporate supporters page.




Figure 9. Top Section of the ASY Web Site Corporate Team Supporters

At the bottom of the Web page, the ASY Web site has the following disclaimer relating
to the corporate logos:

               The presence of corporate logos on this page does not in any way imply
               endorsement of these corporations or their services on the part of the
               Department of Defense.

However, regardless of this disclaimer, Section 8, “External Links,” of the DoD Web Site
Administration Policies and Procedures specifically prohibits graphics or logos depicting
companies from appearing on publicly accessible DoD Web sites.

The DoD General Counsel needs to determine whether company logos should be
removed from the America Supports You Web site.




                                                24
Preferential Treatment
DoD Public Affairs gave preferential treatment to select homefront organizations.
Certain nonprofit organizations were provided with a DoD memorandum of
understanding (MOU) that was used to legitimize their organization. One organization
was funded by DoD through its public relations contract with SDI.

Operation Homefront
On October 11, 2006, the Deputy Assistant Secretary entered into an MOU with
Operation Homefront to delineate support that DoD will provide to Operation Homefront.
Specifically, the agreement states:

               1. This Memorandum of Understanding (MOU) between the United
               States Department of Defense (DoD), on behalf of the United States
               Armed Forces and the America Supports You Program, and
               Operation Homefront (hereinafter collectively referred to as “the
               Parties”) delineates the support that DoD will provide to Operation
               Homefront in furtherance of its mission and the support that
               Operation Homefront will provide to military members and their
               families.
                         .       .       .         .       .       .       .
               4. To the extent compatible with its mission and DoD 5500.7-R, “Joint
               Ethics Regulation,” DoD will inform military personnel, as
               appropriate, about Operation Homefront’s support and services to
               the military community.

               5. The Department of Defense recognizes that the goals of
               Operation Homefront are consistent with DoD’s America Supports
               You program in its efforts to support military members and their
               families. [Emphasis added]

Operation Homefront on its Web site promotes that it is “one of a select few charities” to
operate under an MOU presented by DoD. Although the MOU does explicitly state that
this agreement does not constitute DoD endorsement of Operation Homefront, the
memorandum provides for DoD support, promotion within the military, and DoD’s
recognition of consistent goals with its own program. We believe the MOU does
constitute an endorsement by DoD.

Upon review of Operation Homefront’s 2006 tax return, we found several contributions
from DoD contractors and ASY corporate supporters. SDI, DoD’s contractor for the
America Supports You Program, contributed $10,000 and Fleishman-Hillard, DoD’s
contractor for the Why We Serve program, contributed $5,000 to Operation Homefront.
Further, ASY corporate supporters such as Wal-Mart, Tri-West Healthcare Alliance, and
Toyota gave cash and non-cash contributions totaling $597,732 to the nonprofit.
Operation Homefront was also added to the PGA TOUR, another ASY corporate
supporter, fundraising events for 2007.

We were unable to determine the DoD involvement in connecting ASY corporate
supporters with Operation Homefront. However, the facts seem questionable and show



                                                25
Operation Homefront appears to have received preferential treatment from DoD over
other ASY nonprofit organizations.

ThanksUSA
According to contract modifications, SDI was authorized $50,000 for the benefit of the
ThanksUSA (Treasure Hunt Aiding Needs of Kids and Spouses of those serving the
United States of America) nonprofit as a specific contract line item. According to weekly
agenda calls, SDI discussed ThanksUSA with Public Affairs officials from November
2005 through early January 2006. In addition, in May 2007, SDI called ThanksUSA to
gauge its interest in participating in a Barnes and Noble Web site promotion. Again, it
appears that ThanksUSA has received more support from DoD than other nonprofit
organizations.

Ranking of Homefront Groups
Our review of SDI daily reports and agendas provided another example of the ASY
program involvement in ranking homefront groups.

               February 26, 2007. ASY to provide NASCAR with a list of on-site and
               homefront components we are most interested in and rank these items
               in order of priority.

We believe that DoD or its contractor’s involvement in ranking or providing preferential
treatment to nonprofit organizations is questionable and creates a potential liability for
the Department.

Complaints From Nonprofit Organizations
During the course of the audit, we spoke with a few ASY homefront groups that made
informal complaints about the operations of the ASY program. The complaints alleged
that there was no DoD criteria established to review and accept grass-roots organizations;
the ASY program was attempting to take corporate sponsors from nonprofit organ-
izations; and that the ASY program was taking credit for the nonprofit organizations’
accomplishments even though the DoD program did nothing to help them accomplish
their mission. One group felt that the program was inappropriately focused on gaining
corporate support instead of advertising the public support to the troops.

During the audit, we were not able to fully review all of the allegations made against the
ASY program operations. However, there appears to be validity to some of the
allegations made. As shown in this report, we also found that program operations were
not focused on its primary mission of communicating support to the troops. Further, we
found several instances of the program soliciting corporations and using multiple avenues
to gain media attention to promote or “brand” the ASY program.

The Assistant Secretary of Defense for Public Affairs needs to establish adequate controls
to ensure that the Department does not give preferential treatment to select nonprofit
organizations.




                                               26
Other Program Expenses
The Deputy Assistant Secretary also used contracts totaling $529,038 for an advertising
campaign and manufacture of dog tags to promote the ASY program. Table 8 outlines
the additional ASY program expenses.

         Table 8. Other Expenses for the America Supports You Program
         Contractors              Contract             Service          Total
 Advertising Council        W74V8H-05-P-0402 ASY ad campaign          $ 338,014
 Chip Forbes               NAFBA1-05-M-0096 ASY dog tags                142,024*
 Capital Design            NAFBA1-05-M-0298 ASY dog tags                 49,000
           Total                                                      $ 529,038
 *
  Actual contract amount was $133,750; however, $142,024 was actually paid. Therefore, $8,274 in excess
 of the contract obligation was paid.

The ASY program received public relations services from the Advertising Council for an
ASY ad campaign that totaled $338,014. SDI, in its proposal, had requested DoD to use
the Advertising Council to obtain broad national placement of the ASY program.
Specifically, SDI’s proposal stated:

                A multi-media public service campaign designed and distributed by the
                Ad Council (including radio, print, and Internet) would cost
                approximately $300,000.        That includes all design, production,
                duplication, and distribution costs. A campaign could be developed for
                mid-November distribution. While the costs are significant, working
                through the Ad Council would achieve the broadest national placement
                and distribution and the quickest time to market.

The Advertising Council created downloadable Web banners and print ads in several
different sizes, four radio public service announcements, and a video public service
announcement.




                                                 27
Figure 10 is an example of a print ad created by the Advertising Council.




Figure 10. ASY Print Ad

The ASY program also procured ASY dog tags to brand the ASY program. SDI, in its
proposal, recommended dog tags as an innovative campaign element to “brand” the
program “nationally and link the American Public and troops serving abroad.” Figure 11
shows examples of ASY dog tags.




Figure 11. Dog Tags Purchased for the ASY Program

The Assistant Secretary of Defense for Public Affairs needs to determine whether the
expenditure of funds to promote the program is appropriate and effective in
communicating public support to the troops.

ASY Program Controls
The ASD(PA) did not establish the ASY steering committee with representation from the
Military Departments and Chairman of the Joint Chiefs of Staff to recommend and
coordinate policies and programs that provide similar support and recognition to Service
members and their families. Additionally, the ASD(PA) did not provide the Secretary of


                                           28
Defense a status report of past and future ASY activities or implement any of the other
oversight mechanisms. As a result, the Deputy Assistant Secretary has had complete
autonomy over the program. See page 1 of the report for the text of the Deputy Secretary
of Defense memorandum of September 29, 2006, on the ASY program.

Attempts to Establish the Steering Committee
According to the Deputy Assistant Secretary, the first attempt made to establish the
steering committee was on February 5, 2007, more than 4 months after direction from the
Deputy Secretary of Defense. The Deputy Assistant Secretary sent a memorandum to the
ASD(PA) for approval that would have established the steering committee. Then on
March 5, 2007, the Deputy Assistant Secretary provided responses to specific questions
from the ASD(PA) about the steering committee. Initially, the Deputy Assistant
Secretary provided an explanation of the purpose of the steering committee and Public
Affairs coordinating official:

              The purpose for the creation of the America Supports You program
              steering committee and PASCO [Public Affairs Coordinating Official]
              is to create a long-lasting DoD program that will continue to maximize
              and build support for our troops and their families. ASY [America
              Supports You] reaches across all Services and demographics and for
              the first time in DoD history, it provides a tool that allows us to meet
              needs in a timely fashion and also helps the general public find
              meaningful ways to express their support. Penetrating through the
              negative media environment is challenging but if we continue to sustain
              ASY and integrate it throughout DoD, we will continue to have a
              strong voice that communicates America Support for our military. This
              Steering Committee/PASCO is an important step to ongoing success.

Subsequently, the Deputy Assistant Secretary provided answers to the questions raised by
the ASD(PA) regarding the decisions of the Public Affairs coordinating official and
management structure of the steering committee. The Deputy Assistant Secretary
responded that the steering committee was basically a system that can measure the
program operations and submitted a self-nomination for the position because the ASY
program was managed within her department:

              1.   Who decided on the PASCO?

              a. The structure set up in the memo from Secretary England is the
              basic structure for how programs within DoD are run. It doesn’t have
              to function with this type of oversight or a board but it is a good way to
              ensure coordination and continuity. Secretary England usually requires
              a system that can be measured and the Steering Committee/PASCO is
              one way of establishing that system. . . .

              2. Who decided on the Chair?

              a. This is your decision so you have the choice of naming anyone on
              your staff to be the PASCO. I put in my name because the America
              Supports You program is currently in my department.




                                                 29
On March 6, 2007, the Deputy Assistant Secretary responded to the concern of the
ASD(PA) regarding self nominations but again stated an appropriate selection would be
herself. Specifically, the Deputy Assistant Secretary responded:

               Thank you for the feedback on the America Supports You Steering
               Committee, I understand your [sic] feeling uncomfortable with self-
               nominations . . .

               As to options for the leadership of the PASCO [Public Affairs
               Coordinating Official], you might consider the following:
                   Inside PA [Public Affairs]:

                           o   Since the Steering Committee is made up of
                               General/Flag Officers the options within PA seem
                               limited to yourself or one of your DASD’s.

                           o   DASD’s Options:

                                       It seems that since the America Supports
                                        You Program is currently in my area of
                                        responsibility, I would be an appropriate
                                        selection. . . .

According to the Deputy Assistant Secretary, after these discussions, the ASD(PA) made
the decision not to implement the steering committee for the ASY program as directed by
the Deputy Secretary of Defense. Thus, the Deputy Assistant Secretary continued to
manage and control the program unchecked and no oversight for the ASY program was
established.

The Assistant Secretary of Defense needs to establish the steering committee and
designate a Public Affairs Coordinating Official.

Status Reports
According to the Deputy Assistant Secretary, no other requirements in the Secretary’s
letter were implemented including the ASY program status report for past and future
ASY activities to the Secretary of Defense.

The Assistant Secretary of Defense for Public Affairs needs to set up procedures to
ensure that the Secretary of Defense receives a status briefing on America Supports You
program activities as required.

We will provide the Secretary of Defense a copy of the final report.

Conclusion
Adequate controls and oversight over the ASY program were never established and the
ASY program operations were not focused on its primary objective of showcasing and
communicating public support to the troops and their families. Instead, the program used
contracts with a public relations contractor, SDI, totaling more than $8.8 million to



                                               30
promote the program through costly special events held stateside generally for the public,
not focused on our warfighters in Iraq and Afghanistan.

Consequently, the impact and usefulness of the ASY program to provide support for the
troops is unknown. We agree that while corporate supporters have provided some free
benefits to the troops such as reduced prices and tickets to concerts, amusement parks,
and sporting events, obtaining free benefits for the troops was not the intent of the ASY
program and we do not believe these benefits were provided by the corporations because
of the ASY program. Similarly, the ASY program’s impact on homefront organizations
is also unknown as these organizations were established by individual citizens who
wanted to support the troops whether or not the ASY program existed.

We also acknowledge that public service announcements were provided to the troops
through DoD media and that the ASY Web site does provide a central tool for troops to
find out information about available support from hundreds of homefront groups.
However, the ASY program’s main focus of relying on its Web site as the main
communication method with the troops has not yielded measurable results on the
effectiveness of the program in accomplishing its primary objective.

The Assistant Secretary of Defense for Public Affairs needs to establish appropriate
metrics to measure the effectiveness of ASY program operations in accomplishing its
primary mission of communicating the public support to the troops.

Recommendations, Agency Comments, and Our
Response
       A.1. We recommend that the Assistant Secretary of Defense for Public
       Affairs:

               a. Take appropriate action and create adequate controls to ensure
                  that employees or contractors do not violate the ethics regulations
                  relating to solicitation, fundraising, and endorsement.

       Agency Comments. The Principal Deputy Assistant Secretary of Defense for
       Public Affairs agreed with the recommendation. The Principal Deputy
       commented that he issued instructions to ensure the Office of the ASD(PA)
       programs do not engage in solicitation, fundraising, or endorsement. The
       Principal Deputy also commented that all staff members are required to take
       community relations policy and ethics training by December 31, 2008, and that
       the ASY program has a new program manager, COR, and contract that provides
       better oversight of contractor activities.

       Our Response. We consider the comments responsive.

               b. Determine whether funding special events held stateside is an
                  appropriate and cost-effective way to meet the primary mission of
                  the America Supports You program.

       Agency Comments. The Principal Deputy Assistant Secretary of Defense for
       Public Affairs agreed with the recommendation. The Principal Deputy


                                           31
commented that stateside special events can be an appropriate and cost-effective
means of communicating public support to Military members and their families as
the primary audience. The Principal Deputy also commented that the new ASY
program manager has been tasked to ensure proposed special events are consistent
with this standard.
Our Response. We consider the comments responsive.

       c. Determine whether the procurement of America Supports You
          promotional items for the public is appropriate.

Agency Comments. The Principal Deputy Assistant Secretary of Defense for
Public Affairs agreed with the recommendation. The Principal Deputy
commented that the Office of the ASD(PA) does not have special authorization to
use appropriated funds to purchase promotional items and that the new ASY
program manager is responsible for ensuring that all ASY-related purchases and
expenditures are in compliance with appropriation laws and applicable DoD
authorities. The Principal Deputy also commented that additional management
controls include the WHS Financial Management Directorate and contracting
officer or COR oversight of purchases.

Our Response. We consider the comments responsive.

       d. Ensure that the Joint Civilian Orientation Conference is not used
          to solicit support for DoD programs.

Agency Comments. The Principal Deputy Assistant Secretary of Defense for
Public Affairs agreed with the recommendation. The Principal Deputy
commented that JCOC staff members have been directed not to promote ASY as
part of the JCOC program and will receive refresher training on applicable ethics
rules. Further, the Principal Deputy commented that all JCOC activities will be
conducted in compliance with ethics rules and in accordance with DoD policies.

Our Response. We consider the comments responsive.
       e. Determine whether the Department should continue to give
          recognition awards to corporations and celebrities in return for
          their support of the America Supports You program.

Agency Comments. The Principal Deputy Assistant Secretary of Defense for
Public Affairs agreed with the recommendation. The Principal Deputy
commented that recognition awards will be submitted in accordance with existing
DoD policies and instructions.

Our Response. We consider the comments responsive.
       f. Establish adequate controls to ensure that the Department does
          not give preferential treatment to select nonprofit organizations.

Agency Comments. The Principal Deputy Assistant Secretary of Defense for
Public Affairs agreed with the recommendation. The Principal Deputy
commented that the Office of the ASD(PA) has developed and implemented
standard operating procedures and templates that preclude preferential treatment
to select organizations.

                                    32
Our Response. We consider the comments responsive.

       g. Determine whether the expenditure of funds to promote the
          program is appropriate and effective in communicating public
          support to the troops.

Agency Comments. The Principal Deputy Assistant Secretary of Defense for
Public Affairs agreed with the recommendation. The Principal Deputy
commented that the expenditure of appropriated funds to build support for the
ASY program is not appropriate. Further, the Principal Deputy commented that
the expenditure of appropriated funds to communicate public support to Service
members is appropriate and effective in executing the ASY mission.

Our Response. We consider the comments responsive.

       h. Establish the steering committee and designate a Public Affairs
          Coordinating Official.

Agency Comments. The Principal Deputy Assistant Secretary of Defense for
Public Affairs agreed with the recommendation. The Principal Deputy
commented that the original mission of ASY has been re-established and the
mission is well within the Office of ASD(PA) expertise and capabilities.
Therefore, the ASD(PA) will recommend to the Deputy Secretary of Defense that
the establishment of a Public Affairs Coordinating Official and ASY Steering
Committee are no longer required.

Our Response. We consider the comments responsive.

       i. Set up procedures to ensure that the Secretary of Defense receives
          a status briefing on America Supports You program activities as
          required.

Agency Comments. The Principal Deputy Assistant Secretary of Defense for
Public Affairs agreed with the recommendation. The Principal Deputy
commented that the ASY program manager will provide an annual ASY status
briefing to the Principal Deputy for further submission to the Secretary of
Defense. The briefing is expected by November 2009.

Our Response. We consider the comments responsive.
       j. Establish appropriate metrics to measure the effectiveness of the
          America Supports You program operations in accomplishing its
          primary mission of communicating the public support to the
          troops.

Agency Comments. The Principal Deputy Assistant Secretary of Defense for
Public Affairs agreed with the recommendation. The Principal Deputy
commented that the ASY program manager will research and establish
appropriate metrics to measure the effectiveness of ASY program initiatives along
with a reportable system of measurement.

Our Response. We consider the comments responsive.



                                   33
A.2. We recommend that the General Counsel of the Department of Defense
determine whether company logos should be removed from the America
Supports You Web site.

Agency Comments. The Principal Deputy General Counsel commented that
there are no express exceptions to the DoD Web site Administration Policies and
Procedures. The DoD Web site policy specifically prohibits graphics or logos
depicting companies from appearing on publicly accessible DoD Web sites.
Thus, company logos identified in the draft report should be removed from the
ASY Web site.

Our Response. We consider the comments responsive. As of the date of this
report, the corporate logos link has been removed from the ASY Web site.
However, the corporate supporters Web page has not been removed from the
ASY Web site and can be located when using the search tool. We feel this Web
page should also be removed.




                                   34
Finding B. America Supports You — Private
Fund
A private nonprofit fund using the ASY name and logo has been established to collect
monetary donations, creating confusion between the DoD ASY program and the private
ASY fund; the Deputy Assistant Secretary was directly involved in obtaining monetary
donations for the private fund. The confusion occurred because the Office of the
ASD(PA) does not regulate the use of its trademarked program name and logo and the
program was originally designed to come under the sponsorship of DoD. As a result, the
public may be unable to differentiate between the DoD ASY program and the private
ASY fund; allowing the private fund to operate under the official DoD program’s name
basically constitutes implied DoD endorsement, presenting additional liability for any
misuse of donations, and the private ASY fund unfairly benefits from the “branding” of
the ASY program name by DoD.

America Supports You Fund
On June 28, 2007, the Internal Revenue Service granted nonprofit status to the private
ASY fund. According to documents obtained, the private fund was established as an
adjunct to the DoD ASY program and to allow individuals and corporations to make tax
deductible contributions. This mission of the private fund is described below.

               Funds are used to support the activities of the various grassroots groups
               in such areas as marketing, training, office supplies, web page design,
               accounting, grant preparation, purchase of airline tickets for military
               members and their families and purchasing items and shipping “care”
               packages to troops. A major focus will be developing new programs as
               well as coordinating and assisting the efforts of the homefront groups in
               supporting wounded veterans in military and veterans hospitals.
               Another priority will be to develop programs and support “packages”
               aimed specifically at returning Reserve component (National Guard
               and Reserve) members who, when returning home, often lack the
               support infrastructure that a military base provides.

Creation of the Private Fund
Initially, in October 2005, the Deputy Assistant Secretary submitted a legislative proposal
to formally establish a DoD ASY fund that would allow DoD to solicit and accept
monetary donations from citizens. The DoD ASY fund also planned to have the usual
powers of a nonprofit organization that would let it promote voluntary partnerships
between the Government and the private sector in activities to support the Military and
their families. Congress denied the proposal in its entirety.

Subsequently, in November 2005, another legislative proposal from the Deputy Assistant
Secretary again failed to establish a DoD ASY fund. Then DoD attorneys advised the
Deputy Assistant Secretary that the only way to establish a foundation was in a personal
or private capacity.




                                                 35
According to the interim ASY fund President, the Deputy Assistant Secretary asked him
to set up the ASY fund. The interim President arranged for “pro bono” assistance by a
Washington, D.C., law firm to submit the Internal Revenue Service filing for nonprofit
status.

Use of ASY Name and Logo
The private ASY fund uses the DoD-trademarked ASY program name and logo when
conducting its business. For example, on December 18, 2007, the ASY fund sent a letter
that had the official DoD ASY logo on the top to Bank of America thanking it for its
monetary donation to the private fund. The official DoD ASY logo also appears on the
ASY fund Web site that was registered by SDI, DoD’s contractor for the ASY program.
Figure 12 shows the fund’s Web site using DoD’s official ASY name and logo. The
name and logo are also very similar to the official DoD ASY Web site header in Figure
13.




Figure 12. ASY Fund Web Site Under Construction

Now compare the ASY Fund header to the official DoD ASY Web site.




Figure 13. DoD ASY Web Site Header

The ASY logo/symbol is available for download on the DoD ASY Web site in various
sizes and formats, such as a coffee mug, ball cap, T-shirt, etc.




                                          36
Figure 14 is an example of the official DoD ASY name and logo that is downloadable
from the DoD ASY Web site.




Figure 14. Downloadable ASY Name and Logo

Clearly, the private fund’s use of the official DoD-trademarked logo causes confusion for
the public and constitutes implied endorsement by DoD. According to the interim
President of the fund, the fund received approval from a DoD General Counsel attorney
to call the fund by the same ASY name. However, we believe there needs to be a clear
line of separation between the DoD program and the private fund and the name of the
private fund should be changed.

The DoD General Counsel needs to determine whether it’s appropriate for a privately
managed fund to use the official ASY program trademarked name and logo.

Fund Board
The fund board consists of former senior Federal employees, including a former Under
Secretary of State and former Assistant Secretary of Defense, former acting Assistant
Secretary of Defense for Public Affairs, and a former special assistant to the Deputy
Assistant Secretary of Defense. According to the interim President of the fund, the
board, which has met just one time, is uncompensated but can get expenses reimbursed.
Further, the board makeup will be reconstituted in the near future.

SDI Work on ASY Fund
SDI daily activity reports have shown that the contractor is doing work for both the
private ASY fund and the DoD ASY program. Contractor personnel stated that work for
the ASY fund is “pro bono” or done without compensation for the public good.
However, we did find instances in the billable activities where the ASY fund was
discussed. For example, a March 14, 2007, entry stated:

              Informed Victory Management that a representative from ASY Fund
              will contact them regarding VM’s interest in donating proceeds from
              the sale of limited edition Jeff Gordon ASY race car posters.
              [Emphasis added]


                                              37
In addition, there are several instances documented in daily reports of SDI employees
reaching out to Congress and planning to hold a congressional caucus, which, according
to the SDI chairman, was established to advocate the ASY program and private nonprofit
fund. We were unable to determine whether SDI was inappropriately charging labor
hours to the DoD ASY program for the private fund.

Additionally, the involvement of the DoD ASY contractor in the private ASY fund also
raises additional concerns and further blurs the delineation of the fund from the official
DoD program.

Donations to ASY Fund
According to the interim ASY fund President, as of March 3, 2008, the fund had a
balance of $97,023 and had expended only $5,750 for the Freedom Walk and Internal
Revenue Service filing fee. The largest donation received by the ASY fund was $50,000
from Bank of America. According to the Bank of America Military Segment Executive,
another bank employee, who also acts as the chairman of the ASY Fund Board,
introduced him to the Deputy Assistant Secretary to discuss the ASY program. After the
discussion with the Deputy Assistant Secretary, the executive made a $50,000 donation to
ASY and mailed a check to SDI, the DoD contractor, address. The Deputy Assistant
Secretary’s direct involvement in obtaining monetary donations for the private ASY fund
is not appropriate and increases the chance of confusion between the official DoD
program and the privately managed fund. Our discussion with the Bank’s Military
Segment Executive clearly showed that he did not understand that the ASY fund is
privately managed and not part of the official DoD ASY program.

ASY Corporate Supporters
Y3K Grafix, which provides an ASY-themed truck wrap, donates proceeds from its
sponsorship fees to the private ASY fund. According to the President of Y3K Grafix, the
Deputy Assistant Secretary informed him that an ASY fund was being established.
Subsequently, Y3K Grafix promoted that its proceeds would be donated to the ASY fund.
Specifically, Y3K Grafix’s Web site stated:

               The Trailer Wrap Program is a public awareness campaign
               promoting the “America Supports You” program. The Sponsorship
               fees cover the cost of production, application and the removal of the
               graphics. These fees are eligible for a tax deductable [sic] donation
               as the proceeds are donated to the ASY Fund and are distributed to
               grass roots non-profit organizations dedicated to serving the men and
               women of the military and their families. [Emphasis added]

Prior to the ASY Fund establishment, proceeds were donated directly to homefront
organizations.




                                                38
Figure 15 shows the ASY-themed truck wrap with DoD program logo and name.




Figure 15. ASY Truck Wrap at the 2006 Memorial Day Parade

In addition to the Memorial Day parade, ASY-themed trucks participated in Fourth of
July festivities, the 2006 Armed Forces Bowl, Daytona 500 NASCAR event, and a
Houston Texans Football game. However, Y3K Grafix lost money on the truck-wrap
program so no actual monetary donations were made to the ASY Fund.

The use of the DoD ASY program name and logo and involvement of a senior DoD
official to fundraise for the private ASY Fund is inappropriate. Also, the use of corporate
logos with the official DoD program logo implies endorsement of the corporations by
DoD.

After the General Counsel renders an opinion on the matter, the Assistant Secretary of
Defense for Public Affairs needs to take action, if appropriate, to prevent the private
fund’s use of the DoD trademarked program name and logo.

Unregulated Trademark
In its proposal, SDI recommended the development of a logo/symbol for the ASY
program to create an identity for use in the national branding effort. The logo was
provided free of charge to anyone via the ASY Web site and the use of the logo was not
monitored by Public Affairs. Specifically, SDI’s proposal stated:

               The overall look and feel of the “America Supports You” campaign
               will be supported through a national branding effort. . . . The goal is to
               create a new communication platform that powerfully articulates the
               value of “America Supports You” through words and visuals . . .
               Our team member is Grafik Communications, which has successfully
               designed logos and branding strategies for more than 10 years. . . .
                        .         .        .       .        .        .         .
                      Logo/Campaign Identity – Like the pink ribbon that
                          symbolizes the Breast Cancer initiative, or the yellow wrist
                          band that supported Lance Armstrong, it will be critical to
                          have an identifiable symbol created that captures the essence
                          of the “America Supports You” campaign. . . .



                                                  39
                       . . . For this campaign to be successful, it will have to be
                       adopted at a grass roots level. . . . logos and a number of
                       elements . . . that can be easily downloaded and customized.
                       For instance if a community group wants to put together a
                       large banner to announce an event, they will be able to go to
                       the website and download a banner that already has all of the
                       campaign logos and messages in a banner format.

Grafik was paid more than $118,495 by SDI for creative design services, including
designing the initial ASY Web site ($45,000), developing the ASY logo and campaign
tool kits ($42,245), project management ($4,484), and other miscellaneous services
($26,767).

On April 26, 2005, Stars and Stripes filed for a registered trademark for the words
“America Supports You,” and the ASY logo. The Stars and Stripes request for trademark
was registered on July 4, 2006.

DoD Public Affairs also did not provide any oversight of the use of its program name and
logo. During the audit, we identified that the ASY logo was being used inappropriately
by Café Press to promote political causes titled “right wing swag” and the ASY logo was
put on various clothing items, coffee mugs, and magnets for sale. For example, a thong
undergarment with the ASY name and logo can be purchased from Café Press for $14.99.

The use of a DoD program name and logo for political purposes and on potentially
offensive clothing items is inappropriate and does not help the ASY program accomplish
its primary mission.

The Assistant Secretary of Defense for Public Affairs needs to enforce its registered
trademark and provide adequate oversight of its use.

Conclusion
The public has had difficulty understanding that the private ASY fund is a separate entity
from the DoD ASY program. DoD is basically providing the private fund an implied
endorsement by permitting it to operate under the official DoD program name and use its
logo, which can only create additional liability for the Department should there be any
misuse of donations. Finally, the private ASY fund unfairly benefits more than other
nonprofit groups from the “branding” of the ASY program name by DoD, as discussed in
finding A, and the involvement of senior Defense officials in the private ASY fund
fundraising efforts is not appropriate.

Recommendations, Agency Comments, and Our
Response
       B.1. We recommend that the General Counsel of the Department of Defense
       determine whether it’s appropriate for a privately managed fund to use the
       official America Supports You program name and logo.



                                               40
Agency Comments. The Principal Deputy General Counsel commented that the
recommendation is currently being reviewed and analyzed. A more detailed
response will be provided within 30 days.

Our Response. This recommendation remains unresolved until we receive
additional comments from the DoD General Counsel. Therefore, the DoD General
Counsel needs to provide comments to the final report.

B.2. We recommend that the Assistant Secretary of Defense for Public
Affairs:

       a. After the DoD General Counsel renders an opinion on the matter,
       take action, if appropriate, to prevent the private fund’s use of the
       DoD trademarked program name and logo.

Agency Comments. The Principal Deputy Assistant Secretary of Defense for
Public Affairs agreed with the recommendation. The Principal Deputy
commented that the Office of the ASD(PA) will take appropriate action after the
DoD General Counsel renders an opinion.

Our Response. We consider the comments responsive.

       b. Obtain a registered trademark for all purposes and provide
       adequate oversight of its use.

Agency Comments. The Principal Deputy Assistant Secretary of Defense for
Public Affairs agreed with the recommendation. The Principal Deputy
commented that two new applications were filed in July 2008 to protect the ASY
logo.
Our Response. We consider the comments responsive.




                                   41
Finding C. Contractor Support
The Office of the ASD(PA) provided only broad statements of work and inadequate
oversight for $8.8 million in charges made by SDI for its public relations efforts to
promote or “brand” the ASY program and the services provided appear to be personal in
nature. In addition, while improvements have been made in the contracting process, the
solicitation and award of the follow-on contract to SDI valued at $18.3 million for the
base year and four 1-year options on May 14, 2008, raises questions about the cost-
effectiveness of contractor support. Currently, the Office of the ASD(PA) has contracted
for and spent or plans to spend close to $30 million 4 with SDI for public relations
support. Specific shortcomings with the contracts include:

            the contracting officer failure to adequately task the contractor, obtain
             proposals, and require the contractor to relate labor hours to specific tasks;

            the CORs failed to effectively review the appropriateness and reasonableness
             of contractor charges;

            the Deputy Assistant Secretary’s involvement in the entire procurement
             process to include establishing and funding the requirement, selecting the
             contractor, and reviewing and approving invoices; and

            the failure to obtain adequate competition or effectively evaluate price
             reasonableness on the follow-on contract.

As a result, in FY 2007, the Office of the ASD(PA) procured 11.5 full-time
equivalents (FTE) 5 from SDI for about $2.6 million or an average annual rate of
$223,453 per person to perform public relations efforts. This includes annual rates 6 for
top positions such as senior project executive at $662,691; project executive at $498,960;
senior program manager at $411,142; and program manager at $312,821. In addition,
SDI was reimbursed $17,345 for charges that were either duplicate or specifically
unallowable under the Federal Acquisition Regulation and appropriation laws, such as
first class airfare for entertainers, alcoholic beverages, hotel room charges above per
diem, and entertainment costs, precluding good fiduciary responsibility of taxpayer
funds.

Guidance
Nonappropriated Funds
The Federal Acquisition Regulation and Defense Federal Acquisition Regulation
Supplement do not apply to nonappropriated fund contracting. To date, the majority of
funds expended to SDI were nonappropriated funds from the Stars and Stripes



4
  Including about $2 million in charges made since FY 2007 that were not reviewed.
5
  FTE is a measurement equal to one staff person working a full-time work schedule for one year.
6
  The annual rates were calculated based on annual productive hours of 1,776 for a full-time equivalent as
specified in the OMB Circular No. A-76 multiplied by the hourly rates of each position.


                                                    42
nonappropriated fund. Finding D discusses the appropriateness of using Stars and Stripes
nonappropriated funds to pay for ASY contractor support, a practice outside the purpose
of the nonappropriated fund.

Personal Services Guidance
The Federal Acquisition Regulation, Part 37.104, “Personal Services Contracts,”
establishes that Congress must provide specific authorization for personal services and
that the key question is whether the Government maintains relatively continuous
supervision and control of contractor employees.
               (a) A personal services contract is characterized by the employer-
               employee relationship it creates between the Government and the
               contractor’s personnel. The Government is normally required to
               obtain its employees by direct hire under competitive appointment or
               other procedures required by the civil service laws. Obtaining personal
               services by contract, rather than by direct hire, circumvents those laws
               unless Congress has specifically authorized acquisition of the services
               by contract.

               (b) Agencies shall not award personal services contracts unless
               specifically authorized by statute (e.g., 5 U.S.C. [United States Code]
               3109) to do so.

               (c)
                        (1) An employer-employee relationship under a service
               contract occurs when, as a result of
                                 (i) the contract’s terms or
                                 (ii) the manner of its administration during
                        performance, contractor personnel are subject to the
                        relatively continuous supervision and control of a
                        Government officer or employee. However, giving an order
                        for a specific article or service, with the right to reject the
                        finished product or result, is not the type of supervision or
                        control that converts an individual who is an independent
                        contractor (such as a contractor employee) into a Government
                        employee.
                        (2) Each contract arrangement must be judged in the light of
               its own facts and circumstances, the key question always being: Will
               the Government exercise relatively continuous supervision and
               control over the contractor personnel performing the contract. The
               sporadic, unauthorized supervision of only one of a large number of
               contractor employees might reasonably be considered not relevant,
               while relatively continuous Government supervision of a substantial
               number of contractor employees would have to be taken strongly into
               account (see (d) of this section).

               (d) The following descriptive elements should be used as a guide in
               assessing whether or not a proposed contract is personal in nature:
                        (1) Performance on site.
                        (2) Principal tools and equipment furnished by the
               Government.
                        (3) Services are applied directly to the integral effort of
               agencies or an organizational subpart in furtherance of assigned
               function or mission.


                                                 43
                        (4) Comparable services, meeting comparable needs, are
               performed in the same or similar agencies using civil service
               personnel.
                        (5) The need for the type of service provided can
               reasonably be expected to last beyond 1 year.
                        (6) The inherent nature of the service, or the manner in
               which it is provided, reasonably requires directly or indirectly,
               Government direction or supervision of contractor employees in
               order to --
                                (i) Adequately protect the Government’s interest;
                                (ii) Retain control of the function involved; or
                                (iii) Retain full personal responsibility for the
                        function supported in a duly authorized Federal officer or
                        employee. [emphasis added]

Contracting Officer Representative Guidance and Policy
The Defense Federal Acquisition Regulation Supplement Subpart 201.6, “Contracting
Authority and Responsibilities,” establishes the responsibilities of a contracting officer
designating a COR and requirements to be designated a COR.

               (1) Follow the procedures at PGI [Procedures, Guidance, and
               Information] 201.602-2 regarding designation of a contracting officer’s
               representative (COR).

               (2) A COR—
                       .        .       .        .       .        .   .
                       (ii) Must be qualified by training and experience
               commensurate with the responsibilities to be delegated in
               accordance with department/agency guidelines.
                       .        .       .        .       .        .   .
                       (V) Must be designated in writing, and a copy furnished
               the contractor and the contract administration office—

                                (A) Specifying the extent of the COR’s authority to
                                act on behalf of the contracting officer;

                                (B) Identifying the limitations on the COR’s
                                authority;

                                (C) Specifying     the   period   covered    by     the
                                designation;

                                (D) Stating the authority is not redelegable; and

                                (E) Stating that the COR may be personally liable
                                    for unauthorized acts.

On December 6, 2006, the Director, Defense Procurement and Acquisition Policy issued
a policy memorandum on “Designation of Contracting Officer’s Representatives on
Contracts for Services in Support of the Department of Defense Requirements.” The
memorandum discussed concerns with continued weaknesses identified by the
Government Accountability Office and the DoD Inspector General and reiterates the
requirement that CORs be properly trained and assigned prior to contract performance.


                                                 44
               I am concerned that the post-award management of contracts for
               services in support of Department of Defense (DoD) requirements
               needs more focus and rigor. Organizations that review DoD
               contracts for services, including the Government Accountability
               Office and the DoD Inspector General, continue to identify
               weaknesses in this key function.

               The role of a Contracting Officer’s Representative (COR) is to assist in
               the technical monitoring or administration of a contract. . . .

               Accordingly, please ensure that a properly trained COR is
               designated for contracts for services in support of DoD
               requirements before contract performance begins, and that
               properly trained CORs are identified on active contracts for
               services in support of DoD requirements. In addition, please ensure
               that the contribution of CORs in assisting in the monitoring or
               administration of contracts is addressed as appropriate in the
               performance reviews of individuals who perform COR duties. COR
               training is available via a web-based module, CLC 106, “COR with
               a Mission Focus” at www.dau.mil. [emphasis added]

The training course “COR with a Mission Focus” instructs CORs that they are
responsible for monitoring the contractor’s performance on the contract. The course
provides the COR with best practices, such as reviewing monthly reports to measure
performance of the contract and reviewing invoices and cancelled checks to verify
charges for direct materials and travel expenses. The course cautions that the COR
should be sure not to “approve travel . . . over and above that provided for in the
contract.” Further, when reviewing labor hours, the COR should periodically visit the
contractor’s site to verify that work on the contract is being performed and to select and
review a sample of job time records to check the accuracy of charges.

Internal Controls
Management is responsible for developing and maintaining internal control activities that
comply with the Office of Management and Budget Circular A-123, “Management’s
Responsibility for Internal Control.” See Appendix C for more information on internal
control standards.

Tasking the Contractor
The SDI contracts included only a broad scope of work and did not require that specific
task orders be issued and did not require that the contractor provide proposals for specific
tasks. Consequently, it would be difficult for the contractor to execute the ASY contract
strategy without significant supplemental verbal guidance from DoD representatives.

Initial Contract
The statement of objectives for the initial contract W74V8H-04-F-1172, awarded in
September 2004, established the following broad objective:




                                                 45
               To recognize, build and communicate America’s support for the men
               and women in the U.S. Armed Forces through a six-month national
               awareness campaign entitled “America Supports You.” [Emphasis
               added]

The contract also established the following broad creative campaign components:
               SUBPART A. Strategy & Planning:
               (1) National strategy and partnership plan to include celebrity,
                   business, non-profit, military organizations . . . and individuals for
                   participation on national and regional levels.

               (2) National media strategy, message, and outreach.

               (3) Innovative campaign elements with creative ideas to link citizens
                   at home with deployed service members abroad.

               SUBPART B. Campaign Events:
               (4) National media tour with campaign panel to include, but not
                   limited to, senior military leaders’ spouses, celebrity
                   spokespersons, and CEOs [Chief Executive Officers].

               (5) Campaign launch event from Washington D.C.

               (6) Major regional events.

               (7) Robust Web campaign.

               SUBPART C. Marketing and Advertising Products:

               SUBPART D. Interactive web page components providing a means of
               communicating with military members and others supporting the
               campaign, and allowing for recognition and tracking of participation.
               (8) Recognition program from Department of Defense to individuals,
                   companies, and organizations.

               (9) Radio, print, and web PSA’s [public service announcements].
                   (Spots will be created in-house.)

               (10) Collateral Materials. (Please specify with related costs.)

Modification P00002 issued on January 25, 2005, changed these requirements through
additional clarifying language. Under Subpart A requirements for “direct interaction,
scripting, taping, and programming with celebrities, regional and national sports
organizations, and specific business sponsors rather than relying on coordination of such
efforts via established support organizations such as USO,” were added. The national
media strategy, message, and outreach requirement was reduced. Further, in trying to
link citizens with the troops, the modification incorporated the requirement for innovative
“big picture” items such as Macy’s Parade, Jumbotron on Times Square, MTV, and Late
Nite shows with coverage and communication to troops via DoD media plus greater ASY
campaign visibility at grassroots events.




                                                  46
Under Subpart B, the modification increased strategic planning and timing of this
element to include greater contractor production of talking points and contractor media
training. Under Subpart D, the modification deleted the recognition program requirement
and incorporated the ASY dog tag presentations as an alternative to the established
requirement with additional corporate outreach. In addition, the modification covered
increased costs of collateral materials for press kits and the production of an e-newsletter.

The statement of work for follow-on contract W74V8H-05-F-1172 used basically the
same language except it added the requirement for extensive contractor coordination of
logistics and arrangements for overseas “salute events.” The contractor could not
satisfactorily complete the tasks as written without significant supplemental direction by
DoD personnel.

Stars and Stripes Orders
In August 2005, Stars and Stripes took over contracting by awarding order NAFBA1-05-
F-0531 with a similar work statement. The work statement also established a
requirement for special events. Specifically, the Work Statement section C-1, under
strategy and planning stated:

               (4) Special Events:

                        (a) National media and overseas outreach salute tours to
               include participation by, but not limited to, senior military leaders’
               spouses, celebrity spokespersons, and CEOs [Chief Executive
               Officers]. This requires considerable time for strategic planning and
               execution of this element. It also requires extensive contractor
               coordination of logistics and arrangements for overseas salute events,
               production of talking points, scripting, and various program materials
               for specific markets, as well as contractor’s media training/guidance of
               participants and support for execution of events.

                        (b) Major regional events stateside and salute events in
               overseas deployment locations.

                       (c) Robust web campaign.

Modification P00001 added $400,000 for the Pentagon Memorial National Freedom
Walk. However, the work statement added the task under paragraph “d” but did not
provide any additional detailed information for the contractor to complete the task and
the contractor never provided a proposal to DoD for this specific task.

                       (d) The Pentagon Memorial Freedom Walk Regional
               Marketing Event, stateside event.

Therefore, the contractor could not satisfactorily complete the tasks without significant
supplemental direction by DoD personnel.

Similarly, in January 2006, modification P00002 to this order added $600,000 in funds
for assistance with launch of the ThanksUSA nationwide treasure hunt for youth. Again,



                                                 47
the work statement failed to provide the contractor with a descriptive task that would not
require significant substantial verbal direction from DoD. Specifically, modification
P00002 added the following language to paragraph (e) of the special events section of the
work statement and the contractor was not required to provide a proposal for this task:
               (e) As part of the special events including America Supports You
               geographic conference for ASY team member organizations, regional
               outreach Freedom Song events, and assistance with launch of
               THANKS USA nationwide treasure hunt for youth.

In February 2006, modification P00004 to this order added $500,000 for the Memorial
Day 2006 event, with only the following language, “The scope of services shall be in
accordance with paragraph C-1(4).” Again, the tasking is broad in nature and can only be
completed with significant supplemental verbal guidance from DoD and again there was
no proposal from the contractor for this task. Similar issues exist with Stars and Stripes
statement of work for FYs 2006 and 2007 orders. The contractor also did not provide a
proposal for any of the modifications; therefore, contract requirements were never
defined in clear, specific, and objective terms with measurable outcomes.

Contractor Call Agendas and Activity Reports
During the audit, we obtained the weekly call agendas and conference call minutes from
November 2004 through November 2006. The calls included ASD(PA) officials,
including the Deputy Assistant Secretary, and representatives from SDI. For example,
the March 14, 2005, agenda included corporate updates, including McDonald’s and
Marvel comics; sports updates on PGA TOUR among others; media activities, events,
and concert tour strategy were discussed. These calls were conducted once a week and
provided DoD the opportunity to direct contractor activities. In another example, the
January 23, 2007, daily report contained one entry that stated the contractor “Drafted
letter of Nomination for [Deputy Assistant Secretary] for the NAGC [National
Association of Government Communicators] “Communicator of the Year” award.” The
drafting of the nomination letter is a service unrelated to the ASY contract and could only
have been performed by the contractor because of verbal guidance of a DoD employee.

Contractor Labor Hours
The contracting officer never required the contractor to submit proposals for individual
tasks; therefore, the CORs could not perform adequate oversight of labor hours charged
by the contractor because the labor hours could not be associated with specific tasks.
Table 9 shows that SDI labor charges were 66.5 percent of total contract charges of
$8.8 million and averaged $110,716 each month.

                            Table 9. Labor Charges Invoiced
                 Total         Labor     Percent    Material           Percent
              $8,827,439     $5,867,965      66.5 $2,959,474              33.5

                            Average Monthly Labor Charge
                             Employees  Hours      Labor
                                14        930.5   $110,716


                                              48
During our review of SDI invoices, we discovered questionable labor charges that
warranted more scrutiny. The Army Contracting Center of Excellence 7 contracting
officer issued modification P00004 with an effective date of June 30, 2005, for delivery
order W74V8H-04-F-1172 that consolidated $115,748 from three separate contract line
items. Then, 12 days later, on July 12, 2005, SDI billed exactly $115,748 for labor hours
worked in June 2005, which included a project assistant charge of 332.92 labor hours
during the month, or more than 15 hours a day based on the number of workdays that
month. Another questionable aspect of this charge is the 0.92 hours because previously
SDI time records had reported time mostly in quarter-hour increments.

Also, on the August 1, 2005, invoice, SDI billed labor charges of $162,667; however, the
invoice did not provide any more information to include hours by individual, hourly bill
rates, and titles of the individual who worked. We do not see how the contracting officer
or COR could verify that the labor charges are accurate.

SDI labor charges also included charges for individuals such as Mr. Ed Rollins, a well-
known Republican political strategist. SDI made a check payment of $15,000 to the
strategist for his work on the ASY program. The current interim ASY fund President
also billed labor hours at the Senior Project Executive hourly rate of as much as $373.28.

Given the size of the labor charges on each invoice, more specific tasks need to be
established to allow for a reasonable review of contractor effort.

The Assistant Secretary of Defense for Public Affairs needs to ensure contracting officials
adequately task the contractor, require the contractor to submit proposals for each task,
review the reasonableness of the contractor proposal, negotiate prices for services
provided, and establish measurable outcomes.

Reasonableness of Contractor Charges
The COR did not adequately review supporting documentation such as receipts and
subcontractor invoices to substantiate SDI expenses and the contractor did not have
adequate controls to preclude unallowable charges. As a result, SDI was reimbursed for
charges that are specifically unallowable under Federal Acquisition Regulation Part 31,
“Contract Cost Principles and Procedures,” such as alcohol charges, first class airfare,
and hotel room charges above per diem. The Office of the ASD(PA) also spent
appropriated funds on entertainment expense without specific authorization. Finally, the
continual lack of adequate oversight increased the risk that the Department would pay
excessive or unnecessary charges, precluding good fiduciary responsibility of taxpayer
funds.




7
 The Army Contracting Center of Excellence was formerly known as the Defense Contracting Command -
Washington.


                                               49
Contracting Officer Representatives
The CORs for the SDI contracts or delivery orders did not review and approve payment
for all of the invoices and did not always have required COR training. As a result, best
practices were not followed and the scrutiny applied to the contractor charges was
inadequate. For the six different contracts or delivery orders awarded to SDI, five CORs
were assigned. The CORs were normally in the direct chain of command of the Deputy
Assistant Secretary. We determined that individuals other than the COR approved
payment for invoices. Documentation shows that the Deputy Assistant Secretary directly
approved 21 invoices for payment totaling more than $3.3 million and was involved in
other payments approved by the COR. The former special assistant to the Deputy
Assistant Secretary, who acted as the COR for most of the invoices, never had any
required COR training and the COR, assigned in March 2007, did not take the
recommended training course by the Defense Procurement and Acquisition Policy office.

Unallowable Charges
The COR also failed to adequately review the items that were included in the total direct
expenses claimed on SDI invoices to ensure that all expenses paid on the contract were
allowable. Our review of invoices has discovered that unallowable charges, such as
alcohol, first-class airfare, and hotels above per diem, were paid.

Alcoholic Beverages
The June 2006 invoice included a meal charge of $1,038 for a group of 15 patrons at the
Old Ebbitt Grill restaurant. According to SDI, the meal receipt was for Gary Sinise and
his Lt. Dan Band who were in the area to perform during Military Appreciation Month.
However, we were unable to verify the claim that Mr. Sinise and his band actually ate at
the restaurant. Given the lax controls and poor documentation, basically any receipt
could be charged to the SDI contract and attributed to entertainers. After reviewing the
restaurant credit card receipt, as the COR should have, we determined that $252,
including taxes and gratuity were unallowable charges for the purchase of alcohol, which
is prohibited by Federal Acquisition Regulation Part 31. Specifically, Part 31.205-51,
“Costs of Alcoholic Beverages,” states that, “Costs of alcohol beverages are
unallowable.”




                                           50
See Figure 16 for the Old Ebbitt’s Grill restaurant receipt.




Figure 16. Old Ebbitt Grill Receipt for Alcohol Purchases

Travel Costs
The contracting officer or COR did not enforce contract terms relating to travel.
Specifically, we identified that hotel rates charged by the contractor exceeded per diem
rates and first-class airfare for an entertainer and guest were paid. Specifically, the
contract stated:

               Costs associated with travel and per diem shall be actual costs within
               the limitations set forth by and in accordance with the terms and
               conditions of the Joint Travel Regulation (JTR). The Contractor shall
               submit to the COR all requests for payment for her review prior to
               payment. The Contractor shall submit actual or copies of receipts,
               of airline tickets (coach/economy only is authorized), lodging, car
               rental and receipts for each reimbursement expenses over $75.00.
               It shall be noted that meals are included in the per diem rate that is
               authorized for area of travel in accordance with the JTR. [emphasis
               added]




                                                51
First-Class Airfare
Stars and Stripes also paid $1,653 to SDI for first-class airfare expenses claimed on the
invoice dated June 5, 2006, despite the contract language explicitly stating only coach
airfare is authorized. Specifically, on April 24, 2006, an SDI official booked two
economy-class tickets for an entertainer and guest totaling $1,159, but, on May 2, 2006,
the airfare tickets were upgraded to first class, which increased the airfare costs to
$1,653, inclusive of change and handling fees. The $494 increase in airfare to upgrade to
first class is an unallowable charge.

Hotel Charges
On October 9, 2007, SDI billed travel expenses totaling $4,218, which included two
nights of lodging in New York totaling $1,093. The two nights lodging charges were
billed at rates of $546 and $547 including taxes and fees, respectively. According to
General Services Administration per diem rate guidelines, the lodging per diem rate in
New York City was $196 per night; with taxes and fees it totaled $226 per night. In
addition, the contract file did not have a letter from the contracting officer authorizing
expenses above per diem. Thus, we calculate that $642 in lodging costs were
unallowable. Clearly, the COR failed to enforce the contract terms or consider the
reasonableness and allowability of contractor hotel charges.

The former acting COR, who was responsible for reviewing invoices from September
2005 through February 2007, admitted that contractor travel costs were not verified by
her because she assumed that contractor travel expenses were within allowable per diem
because SDI frequently traveled with the Deputy Assistant Secretary on the same flights
and used the same lodging locations. Further, according to the COR, who has been
assigned since March 2007, he was unaware that verifying contractor charges on the
invoices was a requirement of his duties.

Federal Acquisition Regulation 31.205-46 provides guidance on contractor travel
expenses. The regulation establishes that travel charges that do not exceed per diem rates
are considered reasonable. However, if the expenses exceed per diem the contracting
officer or the representative must obtain and approve a written justification in advance.
Our review of contract documentation maintained by the CORs shows no written
justification permitting travel charges above per diem in the contract file.

Duplicate Charges
We also found that duplicate charges were paid for entertainer airfare, shirts, and
technical staging.

On the June 5, 2006, invoice, SDI billed duplicate airline tickets for one entertainer. On
April 20, 2006, SDI purchased a ticket for $718.60 for an entertainer with arrival and
departure dates of May 4, 2006, and May 5, 2006. Then 5 days later, SDI purchased
another ticket for the same entertainer that cost $728.60 with arrival and departure dates
of May 4, 2006, and May 7, 2006. The two duplicate tickets cost $1,477.20 including all
fees. The airfare ticket charge of $718.60 that was not used should not have been
charged to the contract. The COR approved payment of unallowable and duplicate


                                             52
airfare costs because the COR failed to review supporting travel documentation for the
invoiced costs.

On September 21, 2006, SDI billed $1,755 for 300 volunteer shirts. The next month, on
October 6, 2006, SDI billed for the same volunteer shirts, totaling $1,780. The COR
failed to review support for either of the two charges. We reviewed the invoice
supporting documentation and determined that the September 2006 charge of $1,755 was
not an actual charge, but rather a quote and the October 2006 charge of $1,780 was the
actual expense paid by SDI for the shirts on August 24, 2006. Thus, DoD paid $1,755 for
shirts that were never received and this amount should be refunded.

Another duplicate expense paid was for technical staging from The Crew Works.
Specifically, SDI paid The Crew Works a deposit of $5,083, and billed this amount on
the August 31, 2006, invoice that was subsequently reimbursed by DoD on September 6,
2006. A final bill from Crew Works showed that the total expenses were $8,686. Since a
deposit of $5,083 had already been paid, the balance due was $3,603, as was shown on
the final Crew Works invoice. However, on its September 21, 2006, invoice, SDI billed
the Government for total bill of $8,686 and did not take into account the previous
payment of $5,083 made by DoD. DoD subsequently reimbursed SDI for $8,686 on
September 26, 2006. As a result, DoD paid $5,083 more than the actual expenses. If the
COR had reviewed supporting documentation, the billing error would have been
identified.

These examples discussed in this report have shown that neither the COR nor the
contractor have adequate processes for reviewing or submitting accurate charges. We
calculate DoD paid about $8,945 in duplicate or unallowable charges for the examples
discussed. However, we have found additional duplicate and unallowable charges paid
by DoD of about $8,400 for similar circumstances to those we discussed, making the total
amount of duplicate and unallowable charges paid $17,345.

The Assistant Secretary of Defense for Public Affairs needs to seek a full refund from
Susan Davis International for duplicate and unallowable charges paid, including
interest.

By not establishing an expectation of reviewing supporting records, the CORs created an
environment that exposed DoD to a greater risk of overpayment for expenses and
permitted the payment of unallowable expenses on the contract. The actions of the CORs
preclude good fiduciary responsibility of taxpayer funds.

The Assistant Secretary of Defense for Public Affairs needs to ensure that CORs take
recommended training before being designated, review adequate supporting
documentation, and ask prudent questions to ensure that the contractor charges
submitted are allowable, reasonable, and accurate.




                                            53
Entertainment Expenses
The Office of the ASD(PA) also spent appropriated funds on ASY entertainment
expenses without specific authorization.

The Government Accountability Office, “Principals of Federal Appropriations Law,
Third Edition, Volume I,” dated January 2004, outlines the following rule related to
entertainment expenses.

              . . . appropriated funds may not be used for entertainment except
              when specifically authorized by statute and also authorized or
              approved by proper administrative officers. [emphasis added]

In addition, an official from Armed Forces Entertainment stated that they have not paid
compensation fees to entertainers for performing exclusively to the military. Further,
according to a USO official, congressionally chartered organizations, like the USO, also
follow this practice. DoD Instruction 1330.13, “Armed Forces Entertainment Program,”
dated March 23, 2004, prescribes procedures for providing effective program of live,
professional entertainment for the military and military family members stationed
overseas. The Instruction states:

              It is DoD policy to:

                      3.1 Provide free, quality, live, professional entertainment
              to U.S. Armed Forces personnel and their family members
              stationed overseas, with priority going to those personnel in
              contingency operations and remote and isolated locations.
                      .         .       .        .         .     .        .
              5.2 Types of entertainment groups consist of :

                       5.2.1. Free entertainment groups comprising unsalaried
              entertainers.

                      5.2.2. Commercially sponsored entertainers compensated
              by civilian agencies in return for limited advertising privileges.
              [emphasis added]

Similarly, according to a USO official, the USO does not pay performers compensation
or fees but does pay entertainers a flat per diem rate of $150, as well as transportation
expenses. According to the charter, USO services are also provided in overseas locations
to the men and women of the Armed Forces.

However, our review of the ASY program has shown that the Office of the ASD(PA) has
spent at least $228,950 on entertainment expenses, including $53,821 in fees charged by
the entertainers or about 23.5 percent of all expenses. For example, a January 2006
e-mail from the SDI Chairman, shows that the Deputy Assistant Secretary was directly
involved in arranging the payment of the fee for the Lt. Dan Band.




                                              54
    Table 10 shows the total entertainment fees and expenses paid for ASY entertainment:
                                Table 10. ASY Entertainment Expenses
                                                        Expenses
 Entertainment                 Fee1    Transportation Meals Lodging                          Other2   Total1
                                                                                                    3
Lt. Dan Band                  $              $ 9,549    $1,947 $ 3,699                      $ 397 $
Clint Black                                     3,600    3,143        -                             -
Jenny Boyle                                         -      614    1,676                             -
Harlem Gospel Choir                             3,804        -        -                             -
Craig Morgan/Kenny
Thomas/Rockie Band                                    1,918            221           -             -
Intrepid Concert                                     19,862              -      11,389       113,310
     Total                   $53,821               $38,733        $5,9264      $16,764 $113,707 $228,950
1
  Contractor proprietary information redacted.
2
  Other expenses represent various entertainer expenses including concert production, hospitality, backline, and
other miscellaneous costs.
3
  Due to lack of supporting documentation, we were unable to account for $397 worth of expenses.
4
  Slight rounding inconsistencies exist because auditor calculations included decimal places.

    We found no specific authority for the Office of the ASD(PA) to use appropriated funds
    for entertainment expenses. We also are concerned that the entertainers largely
    performed for the general public rather than military members. The mission of the
    program was to showcase and communicate to military members what citizens are doing
    to support them and their families. We question the Office of the ASD(PA) practice of
    paying profit to entertainers that primarily provide entertainment for the general public.

    The current arrangement involving the Office of the ASD(PA), SDI, and entertainers is
    more commensurate of a common contractual arrangement where ASD(PA) offers
    appropriated funds in exchange for entertainment services. Consequently, we question
    whether the ASY program could have put $228,950 to better use in meeting its mission
    requirements. In addition, the catering expenses directed by the Office of the ASD(PA)
    for the Freedom Walk and Memorial Day Parade, discussed in finding A, would also
    qualify as entertainment expenses and are questionable.

    The Assistant Secretary of Defense for Public Affairs needs to immediately stop spending
    appropriated funds for entertainment expenses unless specific authorization by statute
    has been obtained.

    ASY Procurement Process
    The Office of the ASD(PA) procurements for the ASY contract did not have proper
    segregation of duties because the Deputy Assistant Secretary had involvement in the
    entire procurement process. The Deputy Assistant Secretary was involved in establishing
    and obtaining funds for the requirement (authorizing the transactions) and selecting the
    contractor to perform the work. In addition, the Deputy Assistant Secretary had direct
    supervisory control over follow-on contracts and the COR responsible for measuring
    performance, which allowed for significant influence over invoice reviews and payment


                                                     55
approvals. Thus, the Deputy Assistant Secretary had too much control and influence over
authorizing, reviewing, and approving transactions for the ASY program.

Figure 17 highlights the Deputy Assistant Secretary involvement in the contracting
process.




Figure 17. Contracting Process for the America Supports You Program

Clearly, the Office of the ASD(PA) did not have effective internal controls. The internal
controls exhibited weaknesses in the control environment, risk assessment, and control
activities. Below we discuss each of these areas in greater detail. See Appendix C for
more guidance on these areas as established in the Office of Management and Budget
Circular No. A-123.

Control Environment
The control environment had a weakness because areas of authority and responsibility
were not well-defined. In the current structure, the ASD(PA) failed to appoint a director
of AFIS, allowing the Deputy Assistant Secretary to obtain control over budgets to
transfer funds from other AFIS programs to fund the ASY program. According to an
AFIS budget official, the Deputy Assistant Secretary was not required to seek approval
from anyone before transferring the funds. Additionally, the Deputy Assistant Secretary
was involved in key processes of the contract, including the recommendation to award
the contract to SDI, management of the CORs, and invoice approvals and payments.




                                           56
In May 2007, we spoke with the Director of Administration and Management, Office of
the ASD(PA), who, with the Special Assistant to the ASD(PA), had been tasked by the
Assistant Secretary to conduct a top-to-bottom review of the organization to better
understand everyone’s roles and responsibilities. The review was never completed to our
knowledge and the ASD(PA) resigned in October 2007. The interim Assistant Secretary
planned for a contractor to conduct an organization climate assessment in December 2007
to again gain more understanding of current operations and improve organizational
effectiveness.

The control environment for the Office of the ASD(PA) did not provide well-defined
areas of authority and responsibility or an effective management structure for reporting
and oversight. These weaknesses hindered the amount of oversight over the Deputy
Assistant Secretary activities relative to the ASY program.

Risk Assessment
There were no processes or the processes did not work effectively to identify, analyze,
and mitigate the internal risk of too much power by one individual that could prevent the
organization from meeting its objectives. As discussed above, the control environment
allowed the Deputy Assistant Secretary to assume control of the American Forces
Information Service, which permitted additional influence and control over budgets,
contracting, and payments.

Control Activities
The Office of the ASD(PA) control activities failed to ensure there was proper
segregation of duties in the contracting process for the ASY program. As we discussed in
Figure 17, the Deputy Assistant Secretary had significant influence or control over
establishing and funding the requirement (authorizing the transactions), selecting the
contractor to perform the work, having direct supervisory control over follow-on
contracts and the COR responsible for measuring performance, which allowed for too
much power and influence over invoice reviews and payment approvals. The Deputy
Assistant Secretary also was able to transfer funds from AFIS programs without any
higher level review. In addition, because oversight mechanisms called for by the Deputy
Secretary of Defense were not established for the ASY program and the Director, AFIS
position has been vacant for several years, the supervision over the program and the
Deputy Assistant Secretary actions were not effective and there was no accountability for
the ASY program.

The Assistant Secretary of Defense for Public Affairs needs to take appropriate action to
correct the deficiencies that exist in internal controls and ensure that there is proper
segregation of duties and supervision.

Adequate Competition and Price Reasonableness
While improvements have been made in the contracting process, the solicitation and
award of the follow-on contract to SDI valued at $18.3 million for the base year and
four 1-year options on May 14, 2008, raises questions about the cost-effectiveness of
contractor support. The Defense Media Center failed to obtain adequate competition or


                                            57
effectively evaluate price reasonableness on the follow-on contract. The follow-on
contract includes annual rates for senior project executive at $662,945; project executive
at $501,010; senior program manager at $411,357; and senior events manager at
$390,969 that appear excessive for public relations support.

Contract Improvements
The Performance Work Statement for the follow-on contract also includes a broad scope
of work as shown in Section 2.1 of the Performance Work Statement:

               . . . The Deputy Assistant Secretary of Defense for Public Liaison
               (DASD (PL)) has directed that the America Supports You program
               continue to communicate America’s support of service members and
               their families and connect the actions of citizen support directly to the
               service members themselves. This work encompasses a variety of
               activities which can not be clearly defined at the time of award of
               the contract. This is largely because public affairs is often in
               reaction to events that cannot be predicted, but require affirmative
               action and response. . . .[emphasis added]

However, the contract requires DoD to issue more specific task orders and the contractor
to submit proposals to the specific task orders. On May 30, 2008, three task orders
totaling more than $1.3 million were issued that require the contractor to create an ASY
e-newsletter; provide management, redesign, and support for the ASY Web site; and to
create and leverage connection opportunities for the ASY program. However, at the time
of our site visit to the Defense Media Center on June 18, 2008, the contractor had not
submitted proposals to the task orders. The contract requires the contractor to provide a
price proposal, within 10 days of receipt of the task order, to include direct labor hours of
various positions, along with transportation and other costs that have to be negotiated
with the contracting officer. According to the Defense Media Center contract specialist,
SDI informed her that they have never been required to submit proposals before for their
work on the ASY program.

Consequently, the Defense Media Center has not yet demonstrated that the improved
process is working as designed. The contractor needs to comply with the contract terms
and send proposals directly to the contracting officer within the time constraints
established in the contract.

Legal Advice on Proper Role of the COR
A March 11, 2008, e-mail from an AFIS attorney to the COR of the previous contract, the
Acting Director of Community Relations and Public Liaison, opines that DoD is not able
to provide relatively continuous supervision, direction, and control of the contractor
because it would become an impermissible personal services contract.
               Regarding adding a line that the contractor will act under direction
               of the Department and will be responsive to the guidance of the
               COR.

               The COR monitors performance to ensure compliance with the
               technical requirements and approval of reports marketing plans/ various



                                                 58
               projects, assesses the quality of performance, and serves as a liaison
               between the contractor and the Contracting Officer.

               The COR is not authorized to have the contractor act outside the
               scope of the Contract alter the contract, issue instructions to stop
               or start work, nor exercise relatively continuous supervision,
               direction and control over the contractor personnel.

               In response to your question – We can’t state that the contractor will
               “act under direction” of Department or . . the COR . . . because
               then the contract becomes an impermissible personal services
               contract rather than a contract for PWS [Performance Work Statement]
               performance in which the Contractor works on approved projects.

There still seems to be confusion in how the COR can interact with the contractor in
performing the duties. We remain concerned that the services provided by the contractor
could be personal in nature.

Small Business Set-Aside and Short Time Frame
The Defense Media Center issued a small business set-aside solicitation on
March 28, 2008. The synopsis for the procurement specified that, “the solicitation is a
100% small business set-aside,” with revenues not exceeding $6.5 million. This
limitation significantly reduced the competition that could perform this work.

Further, the timetable for the acquisition also limited competition because some small
businesses were not able to submit proposals in about 20 days. For example, the
President of one small business, who did not submit a proposal, replied to the contracting
officer that the time frame was too short and believes that the agency’s request was
designed to retain the incumbent. Specifically, the president wrote:

               I've reviewed RFP HQ0028-08-R-0010 and the enormous scope of
               work that is required. This RFP was released on 3/28 and proposals are
               due by 4/17.

               I'm absolutely flabbergasted that agencies (small businesses) are being
               asked to put together well thought out proposals in a matter of a few
               weeks. As a veteran, I view this as a very important program for our
               men and women serving in the military. Why would you rush small
               businesses to throw something together?

               Having developed numerous communications plans during my 35 years
               in the advertising and public relations business, the process for this
               particular RFP leads me to believe that it has been designed to retain
               the incumbent agency.

The contracting specialist provided a response that the playing field is level because the
incumbent has not had exposure to the sample task:

               . . . The current contract ends on 1 MAY 08. There have been many
               unavoidable delays in preparing this requirement. Although the time
               provided is somewhat short, our technical experts, who have experience



                                                 59
              in the commercial public relations field, did not feel that the response
              time was unfair. We have asked for proposals in the sample task that
              are not detailed and specific. Further, we have ensured that the
              sample task is in an area that has not been the subject of the
              previous contract and to which the incumbent has not had
              exposure in order to make sure the playing field is level. [emphasis
              added]

Source Selection Evaluation Plan
The source selection evaluation plan for this procurement considered the technical aspect
of the proposals as 80 percent and past performance as 20 percent, while price was not
considered. The technical portion of the plan focused on previous campaign and
corporate experience, qualifications of personnel, contract management and quality
control plan, and a mock campaign. Specifically, the plan stated:

              a. Technical.
              (1) Previous Campaign and Corporate Experience. Panel members
              will examine the campaign plan submitted in response to the
              solicitation. In evaluating the campaign plan, the following will be
              considered: 1) production of a national strategy and partnership
              plan to include celebrity, business, non-profit, military
              organizations (such as Employer Support of the Guard and
              Reserve, veterans organizations, and support groups), and
              individuals for participation on national and regional levels; 2)
              production of a national media strategy, message, and outreach for
              communication nationwide in all markets; 3) production of a
              national outreach program to include participation by, but not
              limited to, senior military leaders’ spouses, celebrity
              spokespersons, and CEO’s; 4) production of a robust web and
              interactive campaign; 5) production of an internal communication
              strategy; 6) establishment of a recognition program for individuals,
              companies, and organizations; 7) production of plans for
              conducting major special events; 8) creation of PSA campaigns for
              internal and external audiences. The panel will examine information
              submitted by the offeror concerning the company history, relevance to
              the work, and the recentness of such experience to the work that will be
              required under the prospective contract. Consideration of information
              related to company history and relevant experience will be confined
              only to information submitted by the offeror. Panel members also will
              consider the amount of business conducted by the company as
              evidenced by the gross receipts for the past three years. In making
              judgments on the depth and relevance of the company’s experience, the
              evaluation panel will consider information on key personnel.

              (2) Qualifications of Personnel. Panel members will examine the
              resumes submitted in response to the solicitation. In evaluating the
              potential of the personnel submitted, the Government will consider the
              level of experience and education of personnel proposed for their given
              job title(s). To be acceptable, resumes must reflect a Baccalaureate
              degree from an accredited university or college in one of the fields
              reflected in paragraph 3.4 of the PWS. A minimum of four years of
              verifiable experience is required (can be a combination of study and
              work experience).




                                                60
              (3) Contract Management and Quality Control Plan. Panel members
              will examine the Management and Quality Control plans submitted in
              response to the solicitation. To be acceptable, the plans must:
              a) provide an implementation plan, which will familiarize, train and
              employ manpower to ensure minimized disruption in service;
              b) provide a staffing plan, which will maintain qualified personnel
              levels when affected by absenteeism and/or turnover; c) provide a
              supervision plan with effective lines of communication and
              responsibility (to include level of authority) for the on-site contract
              manager; d) provide an acceptable methodology for conducting
              inspections and performing audits to achieve contract requirements;
              e) provide an acceptable process for reporting and responding to
              customer complaints; and f) establish a system for measuring levels of
              customer satisfaction. The Government will examine the plans to
              determine how well they demonstrate the offeror’s ability to mitigate
              potential risks and ensure a quality workforce and product.

              (4) Mock Campaign. The Government will evaluate the offeror’s
              approach to the strategy, tactics, and creative elements necessary to
              complete the campaign proposed for the offeror’s chosen target
              audience within the authorized budget. Specific features to be
              evaluated include:

                     Whether the presentation of the mock campaign demonstrated
                      effective use of strategy, i.e., a detailed overall plan to target
                      and reach a specific audience?
                     Are the tactics employed appropriate to the scope and type of
                      campaign, and are they specific to the targeted audience?
                     Do the creative elements of the proposal demonstrate a
                      thorough understanding of the goals of the campaign and a
                      reasonable a reasonable approach to accomplishing the
                      objective of reaching the target audience?
                      .        .        .         .         .        .        .
The past performance section was scored based on surveys conducted and pricing will
not be scored.
              b. Past Performance.
              The panel will examine the information received in response to the Past
              Performance Surveys. The team may also seek present and past
              performance information through use of data independently obtained
              from other government and commercial sources. In evaluating past
              performance information, the following areas shall be considered: the
              currency and relevancy of the information, source of the information,
              context of the information, and general trends in the offeror’s
              performance.

              c. Price will not be scored. However, pricing data shall be evaluated to
              determine completeness, realism, and reasonableness. Completeness
              means that the required information is submitted and is accurate.
              Realism means that the price is consistent with the required effort and
              does not indicate an improvident or unbalanced proposal.
              Reasonableness means the prices are justified. The SSET will consider
              the value of each proposal in terms of the merit offered for the price.
              The Government may select other than the lowest price, acceptable
              offer if it is determined that the additional merit offered is worth the
              additional price in relation to the other proposals received. This



                                                61
                 tradeoff process may be in the best interest of the Government.
                 [emphasis added]

We do not believe that any other contractor than the incumbent had a fair opportunity to
win the award. Making the award a small-business set-aside and requiring a short
suspense time to submit proposals severely limited the chance of competition. Further,
the source selection evaluation plan favored the incumbent because the contractor has
already performed the eight major functions for the ASY program that were outlined in
the Previous Campaign and Corporate Experience sub factor of the technical portion.
The technical portion also included qualifications of personnel; contract management and
quality control plans; mock campaign; and performance measures and standards sub
factors, which accounted for 80 percent of the score. As a result, SDI’s proposal outlined
its accomplishments in the ASY program since September 2004 in performing the major
functions desired in the technical proposal. In addition, the Deputy Assistant Secretary’s
past performance rating also favored the incumbent because it accounted for half of
SDI’s past performance score (20 percent of total score). The Deputy Assistant Secretary
rated all 11 areas of performance as “excellent.” Also questionable is whether the COR
for the previous contract serving on the source selection evaluation board represents an
inherent conflict of interest. Further, the price of the contractor service was not a factor
in the total evaluation of proposals. Based on these facts, it seemed that SDI had a clear
advantage over the minimal competition in being selected as the contractor.

Cost-Effectiveness of Contractor Support
In FY 2007, the Office of the ASD(PA) procured 11.5 FTEs from SDI for about
$2.6 million or an average annual rate of $223,453 per person to perform public relations
efforts. Table 11 shows the labor rates for FY 2007.
                         Table 11. FY 2007 Labor Summary¹
                                                    Average     Annual
          Position             Hours     Amount    Hourly Rate   Rate²  FTE²
 Program Manager               3,091.9 $ 544,593       $176.14 $312,821 1.7
 Project Executive             1,558.3    437,784       280.95 498,960 0.9
 Program Associate             7,686.1    425,337         55.34  98,281 4.3
 Senior Program Manager        1,464.3    338,972       231.50 411,142 0.8
 Conference Manager            2,146.8    269,621       125.60 223,057 1.2
 Senior Project Executive        538.8    201,046       373.14 662,691 0.3
 Senior Event Manager            753.5    165,862       220.12 390,936 0.4
 Communications Assistant      1,952.0    147,413         75.52 134,122 1.1
 Administrative Support          911.3     18,362         20.15  35,786 0.5
 Project Assistant               240.8     10,834         45.00  79,920 0.1
 Project Manager                   9.8        982       100.75 178,933 0.0
    Total                            20,353.2 $2,560,806                              $223,453   11.5
 ¹Slight rounding inconsistencies exist because auditor calculations included decimal places.
 ²Based on 1,776 productive hours in the Office of Management and Budget Circular No. A-76.



                                                    62
This includes annual rates for top positions such as senior project executive at $662,691;
project executive at $498,960; senior program manager at $411,142; and program
manager at $312,821. Table 12 shows the annual rates for the top positions from
FY 2007 through the end of the follow-on contract in 2013. The follow-on contract rates
start in FY 2008.

                       Table 12. Annual Rates¹ for Top Positions2
              Senior                  Senior       Senior     Program Manager/
             Project      Project    Program       Events        Senior Public
   FY       Executive Executive      Manager      Manager     Relations Manager
  2007      $ 662,691 $ 498,960 $ 411,142 $ 390,936                $ 312,821
  2008         662,945     501,010     411,357      390,969           313,127
  2009         662,945     501,010     411,357      390,969           313,127
  2010         662,945     501,010     411,357      390,969           313,127
  20113        673,993     509,357     418,210      397,488           318,344
  20123        700,953     529,730     434,936      413,386           331,079
  2013         717,042     541,893     444,924      422,866           338,683
  Total     $4,743,516 $3,582,969 $2,943,283 $2,797,582                            $2,240,307
 ¹Based on 1,776 productive hours per the Office of Management and Budget Circular A-76.
 2
   Slight rounding inconsistencies exist because auditor calculations included decimal places.
 3
   SDI hourly rates were effective from May 1–April 30 of the following year. For these years, there were
 two separate rates for each fiscal year, so we applied the annual hours proportionately to each rate.

Table 13 discusses the minimum experience and education requirements for the top
positions.
          Table 13. Minimum Experience Requirements for Top Positions
          Position           Minimum Experience           Minimum Education
                          15 years experience in
Senior Project Executive  managing public relations    Bachelor’s degree
                          projects
                          15 years of public relations
                          experience with at least
Project Executive                                      Bachelor’s degree
                          12 years of management
                          experience
                          10 years of public relations
                                                       Bachelor’s degree or
                          experience with at least
Senior Program Manager                                 equivalent professional
                          7 years of management
                                                       experience
                          experience
                          5 years experience in        Bachelor’s degree or
Senior Events Manager     managing special events on equivalent professional
                          a national scale             experience
                          7 years experience in        Bachelor’s degree or
Program Manager/Senior
                          managing public relations    equivalent professional
Public Relations Manager
                          projects                     experience



                                                   63
Paying a public relations contractor annual salaries approaching three-quarters of a
million dollars does not appear to be a cost-effective means to support the ASY program
and the warfighter. We believe the functions performed by the contractor, if appropriate,
could be performed more cost-effectively by DoD employees.

The Assistant Secretary of Defense for Public Affairs needs to determine the cost-
effectiveness of contract services for public relations support versus performing the
requirement in-house.

Conclusion
The contracting officer failed to adequately task the contractor and the labor hours
charged could not be adequately reviewed because there were no contractor cost
proposals tied to a specific task. Consequently, DoD representatives would have been
required to provide significant direction to permit the contractor to complete the tasks
leading to concerns over whether the contractor is performing personal services. CORs
also did not perform their fiduciary responsibility over taxpayer funds by paying for
unallowable and duplicate charges, failing to follow proper procedures, and failing to
establish an environment of scrutiny and cost control by the contractor. We found that
the Deputy Assistant Secretary had too much authority and control over the ASY
program because the current management structure and internal controls were not
effective in providing appropriate supervision or adequate segregation of duties. We
found that, while the contract awarded by the Defense Media Center improved the
contracting procedures, we do not believe it obtained reasonable prices for contractor
support.

Recommendations, Agency Comments, and Our
Response
       C. We recommend that the Assistant Secretary of Defense for Public
       Affairs:

               1. Ensure contracting officials adequately task the contractor, require
       the contractor to submit proposals for each task, review the reasonableness
       of the contractor proposal, negotiate prices for services provided, and
       establish measurable outcomes.

       Agency Comments. The Principal Deputy Assistant Secretary of Defense for
       Public Affairs agreed with the recommendation. The Principal Deputy
       commented that the Defense Media Activity’s Director of Acquisition and
       Procurement will issue policy to contracting officers to emphasize proper
       procedures directly related to the recommendation. The Principal Deputy also
       commented that the Director will conduct quarterly training sessions with all
       contracting staff.

       Our Response. We consider the comments responsive.




                                            64
      2. Seek a full refund from Susan Davis International for duplicate
and unallowable charges paid, including interest.

Agency Comments. The Principal Deputy Assistant Secretary of Defense for
Public Affairs partially agreed with the recommendation. The Principal Deputy
commented that it does not have authority to request a full refund from Susan
Davis International. The Principal Deputy also commented that on October 1,
2008, an unsolicited refund in the amount of $7,556.60 was provided to Stars and
Stripes from Susan Davis International. Further, the Principal Deputy commented
that on October 30, 2008, the Defense Media Activity Director of Acquisition and
Procurement requested the Defense Contract Audit Agency to initiate an audit of
the contracts before the end of calendar year 2008 and following the audit, the
contracting officer will request refunds as appropriate.

Our Response. We consider the comments responsive.

        3. Advise contracting officer representatives to take recommended
training before being designated and to review adequate supporting
documentation and ask prudent questions to ensure that the contractor
charges submitted are allowable, reasonable, and accurate.

Agency Comments. The Principal Deputy Assistant Secretary of Defense for
Public Affairs agreed with the recommendation. The Principal Deputy
commented that the Defense Media Activity’s Director of Acquisition and
Procurement issued policy guidance on October 21, 2008, to ensure CORs are
properly designated and trained prior to contract award. The Principal Deputy
also commented that the Director will conduct quarterly training sessions with all
contracting staff that will emphasize the COR training requirement and discuss
roles and responsibilities of the COR, contracting officer, and program manager.
Our Response. We consider the comments responsive.

      4. Immediately stop spending appropriated funds for entertainment
expenses unless specific authorization by statute has been obtained.

Agency Comments. The Principal Deputy Assistant Secretary of Defense for
Public Affairs agreed with the recommendation. The Principal Deputy
commented that no funds have been expended since the issuance of the draft
report.

Our Response. We consider the comments responsive.
       5. Take appropriate action to correct the deficiencies that exist in
internal controls and ensure that there is proper segregation of duties and
supervision.

Agency Comments. The Principal Deputy Assistant Secretary of Defense for
Public Affairs agreed with the recommendation. The Principal Deputy
commented that on July 17, 2008, the Principal Deputy provided guidance via
e-mail on roles and responsibilities on the program manager and COR. The
Principal Deputy also commented that the COR and program manager fall under
separate leadership to ensure no one individual has total control over the program.

Our Response. We consider the comments responsive.

                                    65
       6. Determine the cost-effectiveness of contract services for public
relations support versus performing the requirement in-house.

Agency Comments. The Principal Deputy Assistant Secretary of Defense for
Public Affairs agreed with the recommendation. The Principal Deputy
commented that on September 25, 2008, he determined that ASY activities should
be conducted to the fullest extent possible by in-house ASD(PA) and Defense
Media Activity staff.

Our Response. We consider the comments responsive.




                                  66
Finding D. Funding of Program Operations
AFIS, working under the authority of the Deputy Assistant Secretary, inappropriately
transferred $9.2 million of appropriated funds to Stars and Stripes through “uniform
funding and management 8 procedures” to finance ASY program expenses through its
nonappropriated fund. The preponderance of those funds (about $5.1 million) was used
to fund the SDI contract. The transfer of appropriated funds and expenditure as
nonappropriated funds was improper because:

       the Deputy Assistant Secretary and Stars and Stripes wrongly relied on Stars and
        Stripes authority to employ uniform funding and management procedures to pay
        for ASY expenses, and

       DoD policy prohibits nonappropriated funds from being used for or to support
        Public Affairs or other activities or programs outside the purposes for which the
        nonappropriated fund was established.

As a result, Stars and Stripes officials failed to perform their fiduciary responsibility, as
established in DoD Instruction 1015.15, by permitting the unauthorized expenditure of
nonappropriated funds outside the purpose of the nonappropriated fund entity. In
addition, Stars and Stripes officials have lost visibility of about $4.1 million in
appropriated funds transferred specifically for ASY requirements. Further, we calculate
that the Stars and Stripes nonappropriated fund account has subsidized ASY expenses by
about $1.9 million through FY 2007.

Transfer of Appropriated Funds
AFIS (working under the authority of the Deputy Assistant Secretary) and Stars and
Stripes inappropriately executed funding transfers through uniform funding and
management procedures to support the ASY program. According to the Automated
Budget Management System, from September 2005 through September 2007, the Deputy
Assistant Secretary transferred $9.2 million of appropriated funds to Stars and Stripes to
support ASY requirements. The Chief Financial Officer, Office of the ASD(PA) and the
publisher of Stars and Stripes, with the approval of the Director of Administration and
Management, Office of the ASD(PA), implemented uniform funding and management
procedures through memoranda of agreement (MOA) from FY 2005 through FY 2007
that obligated more than $6.6 million 9 for the ASY program.




8
  Uniform funding and management is the merging of appropriated funds with nonappropriated funds for
the purpose of providing morale, welfare, and recreation support services using nonappropriated fund rules
and procedures to reduce the duplication of effort and provide better visibility of total program costs.
9
  In 2005, AFIS and Stars and Stripes used utilization, support, and availability procedures to obligate
$676,911. Uniform funding and management procedures were used in 2006–2007 to obligate $5.9 million.


                                                   67
However, the total amount transferred ($9.2 million) exceeded the authorized obligations
by about $2.6 million (see Table 14).

                      Table 14. Funding Transfers
                        Obligated          AFIS          Unauthorized
              FY         Amount          Transfers         Amount
            2005        $ 676,911        $1,013,491       $ 336,580
            2006         2,690,863        4,454,666        1,763,803
            2007         3,250,000        3,702,957          452,957
             Total      $6,617,774       $9,171,114       $2,553,340

Funding Sources
In FY 2006 and FY 2007, AFIS received $3.8 million ($800,000 and $3 million) for the
ASY program from the Defense supplemental budget for GWOT. Specifically, in
FY 2007, the AFIS funding request stated:

              Narrative Justification: Sustainment of the “America Supports You”
              program that provides support activities for U.S. deployed
              military. This program provides a “connector” service for American
              citizens to connect with military members. America Supports You
              brings together all of the grassroots support programs both in the states
              and in the military that directly support our deployed military.
              Impact if not funded: Citizens who want to support our troops would
              not have a central medium and tool for showing their many kinds of
              support. In today’s environment, it is imperative that the DoD help
              facilitate this ongoing support and that this support is
              communicated to deployed forces worldwide. The value of this
              program cannot be overstated; our deployed troops must continue to
              see that the American public and their military leaders support them
              and their families. [emphasis added]

The Deputy Assistant Secretary, without sufficient management or budgetary oversight,
reprogrammed and authorized about $5.4 million of appropriated funds from other AFIS
programs to Stars and Stripes since FY 2005 to pay for ASY expenses (see Table 15).

             Table 15. ASY Program Funding Sources
                        GWOT               AFIS
              FY     Appropriations    Appropriations       Total
            2005                         $ 1,013,491     $ 1,013,491
            2006         $ 800,000         3,654,666       4,454,666
            2007          3,000,000          702,957       3,702,957
             Total       $3,800,000       $5,371,114     $9,171,114


While DoD program managers occasionally encounter budget shortfalls that require
reduction of resources in one program to satisfy the requirements of another program,
reprogramming more than the entire congressionally authorized budget without
appropriate oversight indicates inadequate fiscal planning and budgetary controls. We
also question whether the operations of the other programs were adversely affected by the
apparent preference shown for ASY program needs. The reprogramming of the other


                                                68
appropriations without proper approval of the Under Secretary of Defense (Comptroller)/
DoD Chief Financial Officer and spending more than available in the appropriation
appears to violate the Antideficiency Act. Section 1341(a) of title 31, United States
Code, Subchapter III, “Limitations on expending and obligating amounts,” states:

                 (1) An officer or employee of the United States Government or of the
                 District of Columbia government may not—
                 (A) make or authorize an expenditure or obligation exceeding an
                 amount available in an appropriation or fund for the expenditure
                 or obligation;

The Assistant Secretary of Defense for Public Affairs needs to improve budgetary
controls and oversight of funding for the America Supports You program.

Uniform Funding and Management Procedures
The Deputy Assistant Secretary and Stars and Stripes wrongly relied on the Stars and
Stripes authority to employ uniform funding and management procedures to pay for ASY
expenses.

Guidance
Public Law 107-314, “Bob Stump National Defense Authorization Act for FY 2003,”
provides authority for the use of uniform funding and management for Morale, Welfare,
and Recreation (MWR) programs. The public law allows appropriated funds made
available for MWR programs to be treated as nonappropriated funds and expended in
accordance with nonappropriated laws. Specifically, the public law amended
section 2491(a) of title 10, United States Code to state:

                 Authority for Uniform Funding and Management.—Under regulations
                 prescribed by the Secretary of Defense, funds appropriated to the
                 Department of Defense and available for morale, welfare, and
                 recreation programs may be treated as nonappropriated funds and
                 expended in accordance with laws applicable to the expenditures of
                 nonappropriated funds. When made available for morale, welfare,
                 and recreation programs under such regulations, appropriated
                 funds shall be considered to be nonappropriated funds for all
                 purposes and shall remain available until expended. [emphasis
                 added]

Under the regulations prescribed by the Secretary of Defense, Stars and Stripes was
provided the authority to use uniform funding and management procedures as a
Program Group V supplemental mission nonappropriated fund instrumentality. 10




10
  Program Group V supplemental mission funds are nonappropriated fund instrumentalities that operate as
an adjunct to DoD mission activities that generate nonappropriated funds.


                                                  69
DoD Instruction 1015.15, “Establishment, Management, and Control of Nonappropriated
Fund Instrumentalities and Financial Management of Supporting Resources,” dated
October 31, 2007, states:

              4.4. . . . APFs [appropriated funds] made available to support
              operations of Program Groups I, II, and V (the “Stars and Stripes”
              and Service Academy mixed-funded athletic or recreational
              extracurricular programs only) may be provided to a NAFI
              [nonappropriated fund instrumentalities] under a Memorandum of
              Agreement (MOA) and treated and expended as NAFs[nonappropriated
              funds] . . . [emphasis added]

Army Implementation
In March 2005, the Army prepared an information briefing on uniform funding and
management policy. The briefing established that uniform funding and management
procedures should be used to facilitate procurement of property and services for MWR,
financial reporting and management, and management of employees. The advantages of
uniform funding and management are a reduction in the number of different processes
supporting MWR programs; more management responsive tools for procurement, Human
Resources, and financial management; and expedited execution of appropriated fund
support through up-front transfers. Uniform funding and management requires the
immediate obligation, accrual, expense, and disbursement of appropriated funds prior to
goods or services being acquired and the transfer of funds based on an established MOA
between nonappropriated fund instrumentalities and resource managers. The memoranda
should include outlines for MWR requirements and funding, the payment schedule, and
purpose for which funds are to be used. After transfer of funds, nonappropriated fund
management and accounting systems are responsible for tracking and reporting use of
dollars.

Army Guidance
Army Regulation 215-1, “Morale, Welfare, and Recreation Activities and
Nonappropriated Fund Instrumentalities,” establishes policy, prescribes procedures, and
assigns responsibilities for Army nonappropriated fund instrumentalities. Section 5-3,
“Uniform Funding and Management,” establishes that the purpose is to reduce
duplication of effort and provide better visibility on MWR program costs. Specifically,
the regulation states:

              a. UFM [Uniform Funding and Management] is the merging of
              APFs [Appropriated Funds] with NAFs [Nonappropriated Funds]
              for the purpose of providing MWR support services using NAF
              rules and procedures, thereby reducing duplication of effort and
              providing better visibility on MWR program costs. UFM allows for
              the immediate obligation, accrual, expense, and disbursement of APF
              prior to goods or services being acquired by the NAFI
              [Nonappropriated Fund Instrumentalities]/entity supporting the eligible
              programs.




                                                70
Memoranda of Agreement
AFIS, working under the authority of the Deputy Assistant Secretary, and Stars and
Stripes entered into MOAs obligating appropriated funds of approximately $28.6 million
to Stars and Stripes, which included $6.6 million of support for the ASY program.
However, Stars and Stripes, in its supporting role, did not have ownership or day-to-day
management of the ASY requirement and the program does not relate to its mission, also
making the use of uniform funding and management procedures inappropriate.

DoD Directive 5122.11, “Stars and Stripes (S&S) Newspapers and Business Operations,”
defines the mission of Stars and Stripes as a self-sustaining operation that provides
important news and information to U.S. personnel and their families stationed overseas
while generating nonappropriated fund revenues. Clearly, managing ASY contracts does
not fit into its mission. The MOAs were inappropriate because the funds appropriated for
ASY were not intended for Stars and Stripes’ purpose.

Public Law 107-314 and DoD Instruction 1015.15 authorize that appropriated funds
made available for MWR programs or supplemental mission nonappropriated fund
instrumentality can be treated as nonappropriated funds, which only applies to funds
made available for mission-related needs of Stars and Stripes. For illustration purposes,
consider that AFIS received supplemental appropriated funds for Stars and Stripes
operations. AFIS could transfer the appropriated money to Stars and Stripes for its needs
under uniform funding and management procedures and the funds transferred to support
the operations of Stars and Stripes is permitted to be expensed through its
nonappropriated fund account. However, adding the ASY requirement to Stars and
Stripes does not meet the intent of the public law or instruction and it does not provide
for better visibility of Stars and Stripes program costs.

Stars and Stripes Authority
DoD Instruction 1015.15 establishes that Stars and Stripes can receive appropriated and
nonappropriated fund support similar to a Category B, “Basic Community Support
Activities.” The Instruction defines funding parameters for the Category B activities.

              6.2.1.2.     Category B – Basic Community Support Activities.
              Category B activities are financed with a combination of NAF
              [nonappropriated funds] and APF [appropriated funds] resources.
              Because their NAF revenue-generating capability is limited, these
              activities shall be substantially supported with APFs.

While, Stars and Stripes is authorized to use nonappropriated funds through its
established fund account, its contracting administrative supporting role does not
inherently qualify ASY to use uniform funding and management procedures. The ASY
program has no authority to use nonappropriated funds to operate the program as it
receives strictly appropriated funds, making the use of nonappropriated funds
inappropriate and not consistent with DoD policy.




                                             71
Prohibited Uses of Nonappropriated Funds
DoD policy prohibits nonappropriated funds from being used for or to support Public
Affairs or other activities or programs outside the purposes for which the nonappropriated
fund was established.


DoD Guidance
DoD Instruction 1015.15 establishes restrictions on the use of nonappropriated funds.
The Instruction prohibits nonappropriated funds to be used for Public Affairs or other
activities or programs outside the purposes for which the nonappropriated funds was
established. Specifically, Section 6.2.4.1 of the Instruction states:

               NAFs [nonappropriated funds] are not authorized to be used for or
               to support command representation or protocol functions;
               scholarships, free mailing and/or postage, or any other specific benefit
               for select individuals or group; public affairs, medical, religious, or
               other activities or programs outside the purposes for which the
               NAFI [nonappropriated fund instrumentality] was established; or
               to pay for employees not performing duties directly related to the NAFI
               functions or mission. [emphasis added]

Clearly, using Stars and Stripes nonappropriated funds to pay for the ASY program
managed by Public Affairs is outside the Stars and Stripes nonappropriated fund
instrumentality’s purpose and violates DoD Instruction 1015.15.

Army Guidance
Army Regulation 215-1 establishes policy, prescribes procedures, and assigns
responsibilities for Army nonappropriated fund instrumentalities. The regulation
established that nonappropriated funds are prohibited from use for purposes that cannot
withstand public scrutiny, acquiring goods or services authorized to be paid from
appropriated funds when available, replacing or supplementing appropriated funds from
Public Affairs or support programs outside the purposes of the nonappropriated fund, or
substituting authorized appropriated funds as a matter of convenience. Section 5-14,
“Prohibited Uses,” of the Army Regulation outlines the prohibited uses for
nonappropriated funds.

               a. Public scrutiny. NAFs [nonappropriated funds] will not be used
               for any purpose that cannot withstand the test of public scrutiny or
               which could be deemed a misuse or waste of Soldiers’ dollars.

               b. Authorized APF [appropriated funds] expenditures. NAFs will not
               be used to pay costs in acquiring items or services authorized to be
               paid from APFs when APFs are available (except under DOD MWR
               [morale, welfare, and recreation] USA [utilization, support, and
               availability]/UFM [uniform funding and management] funding
               practices, see paras 5–2 and 5–3). However, NAFs may be used—
               (1) When the appropriate official certifies in writing that authorized
               APFs cannot satisfy the requirement.




                                                 72
               (2) When functions, programs, and activities to be funded with NAFs
               are integral to the functions for which the NAFI [nonappropriated fund
               instrumentality]/entity was established, unless otherwise specified
               elsewhere in this regulation.
                         .        .         .        .        .        .         .
               i. Non-MWR functions.
               (1) NAF payment for any expense involved in a change of command or
               retirement ceremony, command representation, protocol function,
               scholarships, free mailing or postage, unit ceremonies, or any other
               specific benefit for select individuals or groups will not be authorized.
               (2) Items for retirements, funerals, or other such personal-type events
               will not be purchased with NAFs.
               (3) NAFs will not replace or supplement appropriations for public
               affairs, medical, religious, or other activities or programs that are
               outside the purposes for which the NAFI/entity was established.
               (4) NAFs will not be used for costs of employees who are not
               performing duties directly related to the NAFI/entity function or
               mission.
                         .        .         .        .        .        .         .
               t. APF support. NAFs will not be used instead of authorized APF
               support as a matter of convenience. [emphasis added]

Public Scrutiny
The ASY program does not appear to meet the “public scrutiny” test for nonappropriated
funds addressed in Army Regulation 215-1. For example, the uniform funding and
management practices exercised by the Deputy Assistant Secretary for the ASY program
has been subjected to ongoing public scrutiny through newspaper articles published by
Stars and Stripes, The New York Times, and Columbia Journalism Review. Specifically,
the articles questioned the appropriateness of transferring congressional appropriations to
Stars and Stripes and expending nonappropriated funds on ASY appropriated
requirements. Further, the Deputy Assistant Secretary has not established program
performance metrics to determine whether ASY has served as an effective medium for
communicating public support to military service members, which brings into question
the use of this arrangement. We believe that spending funds for a public affairs program
that is not part of the nonappropriated fund instrumentality’s purpose represents a
“misuse or waste of soldier’s dollars.” Also, the accounting records and controls over
both appropriated and nonappropriated funds were not adequate, as discussed later in the
report.

Authorized Appropriated Fund Expenditures
As previously discussed in this report, the ASY program is an appropriated fund program
and has no authority to use nonappropriated funds. The appropriations received for the
ASY program should be direct cited to the contracts awarded to pay for program costs.

Replacement or Substituting of Public Affairs Appropriations
The MOAs entered into by the Office of the ASD(PA) and Stars and Stripes basically
permitted the Stars and Stripes nonappropriated funds to replace Public Affairs
appropriated funds for the ASY program, which is outside the Stars and Stripes
nonappropriated fund instrumentality’s purpose. DoD Directive 5122.11, “Stars and



                                                 73
Stripes (S&S) Newspapers and Business Operations,” defines the mission of Stars and
Stripes as a self-sustaining operation that provides important news and information to
U.S. personnel and their families stationed overseas while generating nonappropriated
fund revenues. Clearly, managing ASY contracts does not fit into the mission.

Use of Nonappropriated Fund for Convenience
The ASY program has no authority to use nonappropriated funds. So it appears another
reason for transferring appropriated funds to Stars and Stripes through MOAs was simply
a matter of convenience that allowed more control of the entire process by the Deputy
Assistant Secretary as discussed previously in finding C.

Clearly, the arrangement between Stars and Stripes and AFIS violated the prohibited uses
of nonappropriated funds as defined by DoD Instruction 1015.15 and Army Regulation
215-1, making the practice inappropriate.

Because the Defense Media Center awarded the follow-on contract on May 14, 2008,
which directly cites appropriations, we did not make a recommendation regarding the use
of nonappropriated funds.

Fiduciary Responsibility
Stars and Stripes officials failed to perform their fiduciary responsibility, as established in
DoD Instruction 1015.15 by permitting the unauthorized expenditure of nonappropriated
funds without a legitimate purpose. Section 4.7 of the Instruction states:

               4.7. NAFs [nonappropriated funds] are entitled to the same
               protection as funds of the U.S. Treasury. The DoD Components shall
               establish such systems as necessary to ensure individual fiduciary
               responsibility for properly using NAF resources and preventing
               waste, loss, or unauthorized use. This responsibility extends to all
               DoD personnel including members of the Armed Forces and civilians
               paid with either APFs [appropriated funds] or NAFs. According to
               section 2783 of Reference (t), NAF personnel who violate NAF
               regulations are subject to the same penalties under Federal laws
               that govern the misuse of appropriations by APF personnel.
               Violations by military personnel are punishable under the Uniform
               Code of Military Justice (chapter 47 of Reference (t)).

Section 5 of the Instruction outlines the Principal Deputy Under Secretary of Defense for
Personnel and Readiness responsibilities in monitoring compliance with policy to ensure
proper administration of nonappropriated fund instrumentalities.
               5. RESPONSIBILITIES

                       .       .        .       .        .       .        .

               5.2. The PDUSD(P&R) [Principal Deputy Under Secretary of Defense
               for Personnel and Readiness], under the USD(P&R), shall, in
               accordance with DoD Directive 5124.8 (Reference (v)), serve as the
               Principal Staff Assistant and advisor to the USD(P&R) and the
               Secretary and Deputy Secretary of Defense for NAF policy, DoD


                                               74
                military and civilian MWR [morale, welfare, and recreation] programs,
                Armed Service Exchanges, lodging programs, and other authorized
                NAFIs [nonappropriated fund instrumentalities]. In discharging this
                responsibility, the PDUSD(P&R) shall:

                        5.2.1. Develop, promulgate, and monitor compliance with
                policy and other guidance to ensure proper administration of
                NAFIs and management of their resources.

                        5.2.2. Serve as the principal DoD point of contact on all
                policy matters relating to NAFIs and NAFs. [emphasis added]

The Principal Deputy Under Secretary of Defense for Personnel and Readiness needs to
review and initiate appropriate action for Stars and Stripes officials who permitted the
unauthorized use of its nonappropriated funds and improper use of uniform funding and
management procedures.

Accounting and Use of Funds
Stars and Stripes has lost visibility of $4.1 million in appropriated funds transferred
specifically for ASY requirements. Further, we calculate that the Stars and Stripes non-
appropriated fund account has subsidized ASY expenses by about $1.9 million through
FY 2007.

As discussed previously, Stars and Stripes received $9.2 million in appropriated funds
transfers from AFIS. However, according to the Stars and Stripes bank account, only
$5.1 million of the appropriated funds were actually deposited into the nonappropriated
account, leaving a discrepancy of $4.1 million (see Table 16).

                      Table 16. Stars and Stripes Accounting of
                          Transferred Appropriated Funds
                      Appropriated          Nonappropriated          Unaccounted
             FY      Fund Transfers       Fund Reimbursement         Appropriation
            2005        $ 1,013,491               $ 676,911*          $ 336,580
            2006          4,454,666                 2,690,863           1,763,803
            2007          3,702,957                 1,700,000           2,002,957
            Total       $ 9,171,114                $5,067,774          $4,103,340

            *
             The $676,911 was obligated in the FY 2005 MOA between ASD(PA)
            and Stars and Stripes; however, the Stars and Stripes nonappropriated
            fund bank account was not reimbursed until FY 2007.




                                                 75
In addition, the Stars and Stripes nonappropriated fund account has subsidized ASY
expenses by about $1.9 million through FY 2007. Our review of payments made to SDI
by Stars and Stripes total more than $6.9 million, while about $5.1 million was
reimbursed to the Stars and Stripes bank account (see Table 17).

                Table 17. Stars and Stripes Nonappropriated
                              Account Subsidy
             FY        Payments        Reimbursement           Subsidy
            2006      $4,042,784           $2,690,863         $1,351,921
            2007       2,899,964            2,376,911           523,054*
            Total     $6,942,748           $5,067,774        $1,874,975*
            *
             Slight rounding inconsistencies may exist because auditor
            calculations included decimal places.

According to the Stars and Stripes Financial Manager, the ASY program was used as a
“plug” when asking the AFIS budget office for reimbursement with other Stars and
Stripes expenditures because there was not enough money to pay for all of Stars and
Stripes needs and this was his method of accounting for reimbursable expenses. The
financial manager stated that Stars and Stripes has received sufficient funds from AFIS
for ASY expenditures. However, we have not been provided with an adequate
accounting of the funds by the financial manager.

While the Office of the ASD(PA) has provided sufficient appropriated funding to Stars
and Stripes for the ASY program, the fact remains that the Stars and Stripes
nonappropriated fund account has paid out $1.9 million more in ASY expenses than it
was reimbursed. Given that Stars and Stripes is unable to account for the remaining
$4.1 million of appropriated funds that were transferred, clearly Stars and Stripes
accounting for the different types of funds is inadequate. In a January 2008 e-mail, the
financial manager for Stars and Stripes admitted that some appropriated funds transferred
for the ASY program were used for Stars and Stripes needs:

                 . . . Stars and Stripes deposits some of the APF [appropriated
                 funds] into the NAF [nonappropriated fund], but uses the rest of
                 the APF for other Stars and Stripes appropriated fund authorized
                 purposes. These funds are not intended for specific uses and can be
                 used for all/all [sic] Stars and Stripes appropriated fund authorized
                 expenses. However, Stars and Stripes uses its NAF to ensure that all
                 SDI contract charges are paid. [emphasis added]

While not all of the money transferred by AFIS was specifically authorized by Congress
for the ASY program, a significant portion was. Given the poor accounting and
oversight, we question whether all appropriated funds were used correctly. For example,
in FY 2007, Stars and Stripes reimbursed its nonappropriated account with only
$1.7 million of the $3.0 million appropriated by Congress through the supplemental
GWOT bill. If the remaining $1.3 million was expended by Stars and Stripes for other
purposes that were not authorized by the appropriation, AFIS and Stars and Stripes would




                                                  76
have violated Section 1301(a) of title 31, United States Code, Subchapter I,
“Application,” which states:

               (a) Appropriations shall be applied only to the objects for which the
                   appropriations were made except as otherwise provided by law.

The DoD Financial Management Regulation specifically forbids the obligation,
procurement, or use of funds for items or services prohibited by the wording of the use of
funds from an appropriation. Any misuse of the appropriation would result in a violation
of the Antideficiency Act (title 31, United States Code, section 1341).

The Under Secretary of Defense (Comptroller)/DoD Chief Financial Officer needs to
request Washington Headquarters Service to conduct a preliminary investigation to
determine whether formal investigations should occur for potential Antideficiency Act
violations on Stars and Stripes purchases with ASY funds and the reprogramming of
appropriations for the ASY program.

The Assistant Secretary of Defense for Public Affairs needs to take appropriate action to
correct internal controls over the accounting of appropriated funds transferred to Stars
and Stripes.

Conclusion
The use of Stars and Stripes nonappropriated funds to pay for the ASY program expenses
was inappropriate. The agreements to use uniform funding and management procedures
made by AFIS and Stars and Stripes were inappropriate because the Office of the
ASD(PA)-managed ASY program does not fall within the Stars and Stripes mission. The
use of Stars and Stripes nonappropriated funds to pay for ASY expenses violated the
several prohibited uses of nonappropriated funds outlined in Army Regulation 215-1 and
DoD Instruction 1015.15. We found that AFIS and Stars and Stripes also did not
exercise due diligence or have appropriate oversight of funding transfers and budgetary
controls were not adequate or working effectively. Stars and Stripes officials failed to
perform their fiduciary responsibilities to ensure that its nonappropriated fund was used
for an appropriate purpose. There was not proper accounting and management of
appropriated funds and program expenditures. The commingling of appropriated funds
with nonappropriated funds requires effective controls to ensure that appropriated funds
and nonappropriated funds are accounted for and expended for authorized purposes.
Further, since the funding for the ASY program received precedence over other AFIS
programs, we question whether more significant priorities may have been hindered.
There appears to be violations of the Antideficiency Act due to appropriations being
reprogrammed for the ASY program and more funds than were available in the
appropriation were spent on the ASY program. Further, Stars and Stripes spent ASY
program appropriated funds on its own needs. Improved controls over budgetary and
funds management are needed.




                                                77
Recommendations, Agency Comments, and Our
Response
    D.1. We recommend that the Under Secretary of Defense (Comptroller)/DoD
    Chief Financial Officer request Washington Headquarters Service to conduct
    a preliminary investigation to determine whether formal investigations
    should occur for potential Antideficiency Act violations on Stars and Stripes
    purchases with America Supports You funds and the reprogramming of
    appropriations for the America Supports You program.

    Agency Comments. The Acting Deputy Chief Financial Officer, Office of the
    Under Secretary of Defense (Comptroller)/DoD Chief Financial Officer agreed
    with the recommendation. The Acting Deputy Chief Financial Officer
    commented that Washington Headquarters Service was requested to conduct a
    preliminary investigation into ASY funding.

    Our Response. We consider the comments responsive.

    D.2. We recommend that the Assistant Secretary of Defense for Public
    Affairs:

          a. Improve budgetary controls and oversight of funding for the
    America Supports You program.

    Agency Comments. The Principal Deputy Assistant Secretary of Defense for
    Public Affairs agreed with the recommendation. The Principal Deputy
    commented that, in September 2007, budgetary controls and oversight of funding
    were assigned to the Administration and Management office and now all funding
    requirements are reviewed by the program manager and COR, and then discussed
    with the contracting officer. Once agreement is reached, then a task order is
    definitized. The Principal Deputy also commented that cost will be projected
    annually for the ASY program and all program purchases will be reviewed for
    compliance with appropriations laws and applicable DoD fiscal authorities.

    Our Response. We consider the comments responsive.

          b. Take appropriate action to correct internal controls over the
    accounting of appropriated funds transferred to Stars and Stripes.

    Agency Comments. The Principal Deputy Assistant Secretary of Defense for
    Public Affairs agreed with the recommendation. The Principal Deputy
    commented that the Defense Media Activity will clearly define the oversight over
    Stars and Stripes financial management and accounting operations as well as
    perform quarterly audits to comply with DoD Instruction 7600.6. In addition, the
    Defense Media Activity will conduct staff assistance visits, review current
    internal control procedures, and recommend revisions to those controls, if
    appropriate.

    Our Response. We consider the comments responsive.

    D.3. We recommend that the Principal Deputy Under Secretary of Defense
    for Personnel and Readiness review and initiate appropriate action for Stars


                                       78
and Stripes officials who permitted the unauthorized use of its
nonappropriated funds and the improper use of uniform funding and
management procedures.

Agency Comments. The Principal Deputy Under Secretary of Defense for
Personnel and Readiness agreed with the report findings but commented that the
recommendation should be addressed to the ASD(PA), who, as the principal point
of contract for Stars and Stripes, is responsible for monitoring and ensuring
compliance with DoD Instruction 1015.15.

Our Response. The Principal Deputy’s comments do not meet the intent of the
recommendation. As defined in DoD Instruction 1015.15, the Principal Deputy
Under Secretary of Defense for Personnel and Readiness serves as the DoD
principal staff assistant and advisor for nonappropriated fund policy. The
Instruction requires that the Principal Deputy develop, promulgate, and monitor
compliance with policy and other guidance to ensure proper administration of
nonappropriated fund instrumentalities and management of their resources.
Therefore, the Principal Deputy needs to provide additional comments to the final
report that specifically address Stars and Stripes noncompliance with its policy
and what corrective actions were taken to ensure proper administration of DoD
nonappropriated funds.




                                   79
80
Appendix A. Scope and Methodology
We conducted this performance audit from July 2007 through August 2008 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

ASY Program Approach
We reviewed ASY program documents from the inception of the program in 2004
through FY 2007. We focused our review on the Office of the ASD(PA) implementation
of the ASY program requirements called for by the Deputy Secretary of Defense. We
reviewed the effectiveness of internal controls over program operations and whether the
current management structure permitted the potential for abuse. We visited or contacted
individuals with ASD(PA), AFIS, Stars and Stripes, SOCO, Washington Headquarters
Service, SDI, and the Defense Comptroller. We also contacted the interim President of
the private ASY fund to determine the current status of its operation. We interviewed
personnel about the formation and operation of the ASY program, program funding, and
contracts awarded to support ASY.

Our review of ASY contracts included the contract scope of work, actions by the
contractor, funding, Office of the ASD(PA) oversight, and payments. We also reviewed
Washington Headquarters Service involvement with and expenses paid for the ASY
program. We reviewed SDI invoices from December 2004 through October 2007 to
verify the accuracy of charges and appropriateness of how ASY funds were spent. We
obtained supporting documentation to verify support for charges made, such as receipts
for 18 invoices that had charges relating to ASY special events like the Freedom Walk
and Memorial Day Parade and for agreements with Lifetime Learning System. For
12 invoices, we reviewed the appropriateness of travel charges, specifically, to determine
that the charges matched the invoice and were appropriate under the contract. The
invoices were selected based on the volume of travel and locations of ASY corporate
supporters. Additionally, we reviewed SDI’s labor charges based on its employee time
reports for five invoices. We also reviewed ASY program contracts with the Advertising
Council and for ASY dog tags.

Our review of funding for the ASY program included a review of the appropriateness of
using uniform funding and management procedures to transfer appropriated funds to a
Stars and Stripes nonappropriated fund entity to pay for ASY expenses. We reviewed
MOAs between the Office of the ASD(PA) and Stars and Stripes, AFIS records of fund
transfers to Stars and Stripes, and Stars and Stripes accounting records for both
appropriated and nonappropriated funds. We also reviewed the source of appropriated
funds and the AFIS budget requests for the ASY program under the GWOT supplemental
budget. We determined the amount of review of the ASY program budget by the
Defense Comptroller.


                                            81
We reviewed Departmental advice and Joint Ethics Regulations relating to solicitation,
fundraising, endorsement, and preferential treatment. We also reviewed the ASY Web
site for compliance with DoD policy. We reviewed the use of the JCOC program to
increase support for the ASY program. We also reviewed current policy and training
courses for CORs.

Use of Computer-Processed Data
We did not rely on computer-processed data to perform this audit or support conclusions
made in this report.

Prior Coverage
During the last 5 years, the DoD Inspector General has issued one report that directly
relates to this audit and the Air Force Audit Agency has issued one report discussing
programs that benefit members of the military and their families. Unrestricted DoD
Inspector General reports can be accessed at http://www.dodig.mil/audit/reports.
Unrestricted Air Force Audit Agency reports can be accessed at
https://www.afaa.hq.af.mil/afck/plansreports/reports.shtml.

DoD Inspector General
DoD Inspector General Report No. D-2009-028, “Organizational Structure and
Managers’ Internal Control Program for the Assistant Secretary of Defense (Public
Affairs) and American Forces Information Service,” December 10, 2008.

Air Force
Air Force Audit Agency Report No. F2005-0014-FB1000, “Your Guardians of
Freedom,” September 26, 2005




                                            82
Appendix B. America Supports You
Corporate Supporters
Since November 2004, more than 35 companies have become corporate supporters of the
ASY program. These companies receive advantages, including free advertising, in
appreciation for joining the ASY program and for their work with homefront groups
supporting the military men and women. The table shows a list of the ASY corporate
sponsors.

                America Supports You Corporate Supporters
   Anheuser-Busch                  Morgan Franklin
   AT&T                            NASCAR
   Babies “Я” Us*                  Pentagon Federal Credit Union
   Barnes & Noble                  PGA of America
   Bell Helicopter                 PGA TOUR
   Books-A-Million*                Qwest
   Cardstore.com*                  Re/Max
   Checkers/Rally’s                Ringling Brothers
   Connect and Join                Sam’s Club
   DC United                       San Diego Padres
   eKnowledge                      Toyota
   Fox Sports Radio*               Tri-West
   Grand Ole Opry                  USAA
   Hallmark Channel                USA Basketball
   Indianapolis Motor Speedway     Victory Management Group (VSG)
   Lowe’s                          Wal-Mart
   Marvel                          Washington Capitals
   McDonalds                       Washington Nationals
   Microsoft                       Washington Redskins
   Military Channel                World Wrestling Entertainment (WWE)
   Mont Blanc                      Y3K Grafix
*Subsequently removed from the America Supports You Web site.




                                              83
Appendix C. Internal Control Standards
Management’s responsibility for developing and maintaining internal control activities
must comply with the following standards.
              Control Environment: The control environment is the organizational
              structure and culture created by management and employees to sustain
              organizational support for effective internal control. When designing,
              evaluating or modifying the organizational structure, management must
              clearly demonstrate its commitment to competence in the workplace.
              Within the organizational structure, management must clearly: define
              areas of authority and responsibility; appropriately delegate the
              authority and responsibility throughout the agency; establish a suitable
              hierarchy for reporting; support appropriate human capital policies for
              hiring, training, evaluating, counseling, advancing, compensating and
              disciplining personnel; and uphold the need for personnel to possess
              and maintain the proper knowledge and skills to perform their assigned
              duties as well as understand the importance of maintaining effective
              internal control within the organization.

              Risk Assessment: Management should identify internal and external
              risks that may prevent the organization from meeting its objectives.
              When identifying risks, management should take into account relevant
              interactions within the organization as well as with outside
              organizations. Management should also consider previous findings;
              e.g., auditor identified, internal management reviews, or
              noncompliance with laws and regulations when identifying risks.
              Identified risks should then be analyzed for their potential effect or
              impact on the agency.

              Control Activities: Control activities include policies, procedures, and
              mechanisms in place to help ensure that agency objectives are met.
              Several examples include: proper segregation of duties (separate
              personnel with authority to authorize a transaction, process the
              transaction, and review the transaction); physical controls over assets
              (limited access to inventories or equipment); proper authorization; and
              appropriate documentation and access to that documentation.

              Internal control also needs to be in place over information systems –
              general and application control . . .

              Information and Communications:             Information should be
              communicated to relevant personnel at all levels within an
              organization. The information should be relevant, reliable, and timely.
              It is also crucial that an agency communicate with outside
              organizations as well, whether providing information or receiving it.
              Examples include: receiving updated guidance from central oversight
              agencies; management communicating requirements to the operational
              staff; operational staff communicating with the information systems
              staff to modify application software to extract data requested in the
              guidance.

              Monitoring: Monitoring the effectiveness of internal control should
              occur in the normal course of business. In addition, periodic reviews,



                                                84
reconciliations or comparisons of data should be included as part of the
regular assigned duties of personnel. Periodic assessments should be
integrated as part of management’s continuous monitoring of internal
control, which should be ingrained in the agency’s operations. If an
effective continuous monitoring program is in place, it can level the
resources needed to maintain effective internal controls throughout the
year.




                                  85
86
Under Secretary of Defense (Comptroller)/DoD Chief
Financial Officer Comments




                   Click to add JPEG file




                                  87
Click to add JPEG file




               88
Principal Deputy Under Secretary of Defense for Personnel
and Readiness Comments




                    Click to add JPEG file




                                   89
                           Final Report
                            Reference




Click to add JPEG file




                         Pages 70 and 72




               90
Assistant Secretary of Defense for Public Affairs
Comments




                    Click to add JPEG file




                                   91
Click to add JPEG file




               92
Click to add JPEG file




               93
Click to add JPEG file




               94
Click to add JPEG file




               95
Click to add JPEG file




               96
Click to add JPEG file




               97
Click to add JPEG file




               98
General Counsel, Department of Defense Comments




                  Click to add JPEG file




                                 99
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the Department
of Defense Office of Inspector General who contributed to the report are listed below.

Richard B. Jolliffe
Bruce A. Burton
Henry F. Kleinknecht
Joseph P. Bucsko
Bradford C. Green
Steven L. Kohne
Jason R. Parks
Mayra G. Velazquez-Perez
Meredith H. Weberg
